<html>
<title> - U.S. POLICY TOWARDS IRAQ AND SYRIA AND THE THREAT POSED BY THE ISLAMIC STATE OF IRAQ AND THE LEVANT (ISIL)</title>
<body><pre>[Senate Hearing 113-589]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-589
.  
           U.S. POLICY TOWARDS IRAQ AND SYRIA AND 
            THE THREAT POSED BY THE ISLAMIC STATE 
            OF IRAQ AND THE LEVANT (ISIL)

=======================================================================

                                HEARING

                               BEFORE THE 

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2014

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.fdsys.gov/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
93-641                WASHINGTON : 2015                  
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  





                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                  (ii)

  

                            C O N T E N T S

                               __________

                           september 16, 2014

                                                                   Page

U.S. Policy Towards Iraq and Syria and the Threat Posed by the 
  Islamic State of Iraq and the Levant (ISIL)....................     1

Hagel, Hon. Charles T., Secretary of Defense.....................     5
Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....    13
Questions for the Record.........................................    69

                                 (iii)


U.S. POLICY TOWARDS IRAQ AND SYRIA AND THE THREAT POSED BY THE ISLAMIC 
                  STATE OF IRAQ AND THE LEVANT (ISIL)

                              ----------                              


                      TUESDAY, SEPTEMBER 16, 2014

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Reed, Nelson, 
McCaskill, Udall, Hagan, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, Inhofe, McCain, 
Sessions, Wicker, Ayotte, Fischer, Graham, Vitter, and Lee.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee will come to order. We're 
asking all the audience now to either take their seats and be 
quiet or please leave.
    This morning, the committee receives testimony from the 
Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on the threat posed by the Islamic State of Iraq and the 
Levant, known as ISIS or ISIL, and on the President's strategy 
for addressing this threat.
    Secretary Hagel and General Dempsey, we welcome you both. 
We look forward to your testimony.
    ISIS has terrorized the Iraqi and Syrian people, engaging 
in kidnappings, killings, persecutions of religious minorities, 
and attacking schools, hospitals, and cultural sites. ISIS has 
brought home its barbarity with the brutal beheading of 
American journalists, James Foley and Steven Sotloff, and 
British aid worker, David Haines.
    While ISIS is currently focused on building an Islamic 
caliphate in the Middle East, its poisonous ideology is 
hostile, not only to the region, but to the world, and there is 
real risk that the area it controls could become a launching 
pad for future terrorist attacks against the United States and 
our allies. This threat is amplified by foreign fighters who 
travel from Western countries to join with ISIS and then return 
to their countries of origin with advanced training and 
fighting experience.
    I recently returned from Iraq, where U.S. airstrikes are 
helping Kurdish Peshmerga forces and Iraqi security forces 
break ISIS's momentum. However, our military leaders and 
intelligence experts uniformly say that airstrikes alone will 
not be sufficient to defeat ISIS. A number of elements of a 
successful strategy against ISIS are embodied in the approach 
outlined by the President last week.
    First, the participation of key Arab states in the region 
will be critical to the effectiveness of any international 
coalition. If Western countries act in Iraq and Syria without 
visible participation and leadership of Arab nations, it will 
play into the propaganda pitch of the violent extremists that 
we are interested in dominating Iraq and Syria. ISIS's 
poisonous strand of Islam is a threat to all Muslim countries 
and can only be purged in a lasting way by mainstream Islam in 
the Arab world.
    The international conferences in Jeddah last week and in 
Paris yesterday were a good start, with a number of Arab states 
declaring their shared commitment to develop a strategy, ``to 
destroy ISIL wherever it is, including in both Iraq and 
Syria,'' and joining in an international pledge to use, 
``whatever means necessary,'' to achieve this goal.
    Second, our assistance has been requested by the Government 
of Iraq, which has made a commitment to govern in an inclusive 
manner. The effort to rid Iraq of ISIS cannot be successful 
without the support of all elements of Iraqi society, including 
not only Shi'ites, Kurds, and religious minorities, but also 
the Sunni tribes, who strongly oppose the Maliki Government. 
The more the new government in Baghdad does to address the 
grievances of Iraq's Sunni communities, the more successful 
they will be in helping rid their country and the world of the 
ISIS poison.
    Third, the President has announced that combat operations 
in Iraq and Syria will be carried out by Iraqis and Syrians 
with the support of a broad international coalition. That is 
the better approach, because, in this part of the world, the 
use of military force by Western nations can be 
counterproductive if it is not done correctly. In the absence 
of a Western target on the ground, ISIS's actions will 
undermine its own cause, because its brutality will continue to 
be targeted at fellow Muslims. We should be fully engaged in 
training and equipping Iraqis, Syrians, Kurds, and other local 
forces that are willing to take on ISIS, but we should try to 
counter the narrative of fanatics who attack Western combat 
forces on the ground as an occupation.
    I believe the President, under both domestic and 
international law, has the authority to conduct the type of 
limited military campaign that he outlined last week. However, 
bipartisan, bicameral congressional support will make it easier 
for the President to build an international coalition, 
including the open and visible support of Arab countries. We 
should have the chance, before we leave, to vote on legislation 
that would authorize the U.S. military to openly train-and-
equip the vetted moderate opposition in Syria, and I hope that 
Congress can come together to support it.
    Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    After a year of the White House indecision and 
handwringing, the President finally presented to the American 
people his strategy to defeat ISIS. That was announced last 
week, however, it fell short in two vital areas that I want to 
share with you.
    First, the President again failed to acknowledge the 
seriousness of the threat that ISIS poses to the U.S. national 
security in its homeland. His claim that America is safer may 
support his political narrative, but it's not true.
    Secretary Hagel, I appreciate your honesty when you 
described ISIS on August 21 when you said that it's a imminent 
threat to every interest we have, whether it's in Iraq or 
anyplace else. I agree with you. ISIS has reported 35,000 
fighters, nearly three times larger than it was in June. It's 
tripled since June and is growing larger every day. It's 
estimated that at least 2,000 fighters hold Western passports 
and at least 100 are U.S. citizens. This, coupled with their 
vast resources, large safe haven, blood, thirst to kill more 
Americans, is a recipe for disaster. The administration 
continues to say, ``No specific evidence of plots against the 
homeland exist.'' Now, I want to remind everyone that we didn't 
have any specific evidence of plots against the homeland before 
September 11, 2001.
    Now we face an extremist organization that is larger, more 
brutal, better networked, and better funded than al Qaeda ever 
was. I believe it's critical to have in the record and that we 
establish today, how ISIS is fundamentally different from al 
Qaeda.
    First of all, al Qaeda hides in caves. ISIS takes holds of 
governments' territories the size of my State of Oklahoma.
    Second, al Qaeda has small groups of specialized fighters 
using terrorist tactics. ISIS is an army, with tanks, 
artillery, using conventional military, insurgent, and 
terrorist tactics.
    Al Qaeda is based in remote regions of the world. ISIS sits 
on Europe's doorstep.
    Al Qaeda uses the outdated propaganda and Arab-language 
media, but ISIS uses sophisticated media in multiple languages, 
including English, to spread its cause to recruit fighters.
    Al Qaeda spent $1 million--this is very significant, Mr. 
Chairman--on September 11. ISIS, we were going to say, until 
today, takes more than $1 million every day. There is an 
Associated Press story this morning that shows, very 
convincingly, that they have access to an additional $3 million 
every day.
    Now, the second thing that I think is a vital area. The 
President's strategy to defeat ISIS is fundamentally detached 
from the reality on the ground. Let's be clear. ISIS commands a 
terrorist army comprised of tens of thousands of organized 
fighters who have tanks, antitank missiles, and artillery. Its 
conventional battlefield successes have allowed it to triple 
its ranks in size in only 3 months. It will take an army to 
beat an army. However, instead, the President presented the 
limited counterterrorism strategy that he compared to his 
approach in Yemen and Somalia. The difference between al Qaeda 
in Yemen and Somalia and that of ISIS are enormous, and our 
strategy for each should reflect that reality. Taking this one-
size-fits-all approach is destined for failure.
    General Deptula, architect of the successful U.S. air 
campaign that destroyed the Taliban army on the battlefield in 
2001, said, ``We need to institute an aggressive air campaign 
in which air power is applied like a thunderstorm, not like a 
drizzle.'' Furthermore, airstrikes can only be fully effective, 
especially in the urban areas ISIS is entrenched in, when 
paired with skills of a trained air controller on the ground. 
The President, however, already ruled out boots-on-the-ground. 
There was a collective sigh of relief at ISIS headquarters in 
Syria when they heard him say that. His claim of ``no boots-on-
the-ground'' is an insult to the men and women in Iraq today 
who are serving in harm's way. We already have boots-on-the-
ground, in Erbil, in Baghdad, and throughout Iraq. We should 
ask the pilots dropping bombs over Iraq whether they think they 
are in combat, pilots who have faced the real threat of having 
to eject over ISIS-held territory. I am not advocating an army 
division or combat elements on the ground, but it is foolhardy 
for the Obama administration to tie the hands and so firmly 
rule out the possibility of air controllers and special 
operators on the ground to direct airstrikes and advise fighter 
forces. It sends the wrong message to our troops, to the enemy, 
and to partners.
    Furthermore, if Congress does authorize the training and 
equipping of the Syrian moderate opposition, and then pushes 
them into combat without advisors on the ground, that effort is 
most likely to fail.
    We still don't have the answers to the most important and 
fundamental questions about what we're ultimately trying to 
accomplish. For example: What does a defeated or destroyed ISIS 
look like?
    Finally, I hope we get the answers today, not only to the 
President's strategy, but also about the current state of our 
military residents. General Dempsey, nothing significant has 
changed, but when you warned, on February 12 of last year, that 
our military is on a path where the force may become, ``so 
degraded and so unready that it would be immoral to use 
force''--when 6 years of massive budget cuts and another round 
of defense sequestration is on the horizon, we are still on 
that path. Despite this, the administration is still calling on 
our military to support its pivot to Asia, bolster our European 
allies against a growing Russian threat, successfully 
transition our missions in Afghanistan, support the response to 
the ebola as we've heard this morning, with another 3,000 
troops going to be going over there, and now to launch military 
operations against ISIS in Iraq and Syria. Unlike what the 
President seems to believe, you can't have it both ways. You 
can't slash our defense budget, on one hand, while expecting 
our military to do it, on the other. If we want our military 
men and women to go into harm's way and defend this country, we 
need to give them the training, the tools, and the support they 
need to succeed. Without a ready, capable military, the 
President's imperfect strategy will remain what has become the 
trademark of this administration: a lot of tough talk that 
isn't backed by meaningful action.
    I was hoping we could debate these broadly important issues 
with the National Defense Authorization Act, but we have not 
been able to do that, so it looks like, Mr. Chairman, that this 
is it.
    Thank you.
    Chairman Levin. Thank you, Senator Inhofe.
    Secretary Hagel.

    STATEMENT OF HON. CHARLES T. HAGEL, SECRETARY OF DEFENSE

    Secretary Hagel. Chairman Levin, Senator Inhofe, members of 
the committee, Chairman Dempsey and I very much appreciate the 
opportunity----
    Chairman Levin. Okay, would you--[directed to the audience] 
we're asking you again to please sit down, and, if not, we're 
going to ask you to leave. No, thank you--thank you for--would 
you please now leave? Would you please now leave? I am asking 
you to please leave. You're acting very warlike, yourself. 
Would you please leave?
    Thank you.
    Secretary Hagel.
    Secretary Hagel. Mr. Chairman, as I was saying, Chairman 
Dempsey and I very much appreciate the opportunity this morning 
to discuss the President's strategy to degrade and ultimately 
defeat ISIL.
    As you all know, today, President Obama is in Atlanta, 
meeting with CDC officials regarding the ebola crisis, and then 
will travel tonight to Tampa to receive a briefing from the 
Commander of U.S. Central Command (CENTCOM), General Austin, on 
operational plans to implement his ISIL strategy. I'll join the 
President tomorrow in Tampa for that briefing.
    The Department of Defense's (DOD) civilian and military 
leaders are in complete agreement that the United States and 
our allies and partners must take action against ISIL and that 
the President's strategy is the right approach. However, as 
President Obama has repeatedly made clear, American military 
power alone cannot and will not eradicate the threats posed by 
ISIL to the United States, our allies, and our friends and 
partners in the region. Iraq's continued political progress 
toward a more inclusive and representative government and its 
programs of reform and reconciliation will be critical to 
achieve the progress required. We believe that the new Iraqi 
Prime Minister Abadi is committed to bringing all Iraqis 
together against ISIL. To support him and the Iraqi people in 
their fight, the coalition will need to use all its instruments 
of power. We intend to use all of those instruments of power--
military, law enforcement, economic, diplomatic, and 
intelligence--in coordination with all the countries in the 
region.
    To succeed, this strategy will also require a strong 
partnership between our executive branch and our Congress. The 
President has made it a priority to consult with congressional 
leadership on the ISIL challenge, as have Vice President Biden, 
Secretary Kerry, and many senior members of the administration. 
I have appreciated the opportunities I have had to discuss the 
President's strategy with many members of this committee and 
other members of the Senate and the House over the last couple 
of weeks. We will continue to consult closely with Congress as 
this campaign moves forward.
    ISIL poses a real threat to all countries in the Middle 
East, our European allies, and to America. In the last few 
months, the world has seen ISIL's barbarity up close as its 
fighters advanced across western and northern Iraq and 
slaughtered thousands of innocent civilians, including Sunni 
and Shi'a Muslims and Kurdish Iraqis in religious minorities. 
ISIL's murder of two U.S. journalists outraged the American 
people and exposed to the world the depravity of ISIL's 
ideology and tactics. Over the weekend, we saw ISIL's murder of 
a British citizen.
    ISIL now controls a vast swath of eastern Syria and western 
and northern Iraq, including towns and cities in all of these 
areas. ISIL has gained strength by exploiting the civil war in 
Syria and sectarian strife in Iraq, and it has seized territory 
across both countries and acquired significant resources and 
advanced weapons. ISIL has employed a violent combination of 
terrorists, insurgent and conventional military tactics. ISIL 
has been very adept at developing technology in social media to 
increase its global profile and attract tens of thousands of 
fighters. Its goal is to become the new vanguard of a global 
extremist movement and establish an extremist Islamic caliphate 
across the Middle East. It considers itself the rightful 
inheritor of Osama bin Laden's legacy.
    While ISIL clearly poses an immediate threat to American 
citizens in Iraq and our interests in the Middle East, we also 
know that thousands of foreign fighters, including Europeans 
and more than 100 Americans, have traveled to Syria with 
passports that give them relative freedom of movement. These 
fighters can exploit ISIL's safe haven to plan, coordinate, and 
carry out attacks against the United States and Europe.
    Although the Intelligence Community has not yet detected 
specific plotting against the U.S. Homeland, ISIL has global 
aspirations. As President Obama has made clear, ISIL's leaders 
have threatened America and our allies. If left unchecked, ISIL 
will directly threaten our Homeland and our allies.
    In his address to the Nation last week, President Obama 
announced that the United States will lead a broad 
multinational coalition to roll back the ISIL threat. More than 
40 nations have already expressed their willingness to 
participate in this effort, and more than 30 nations have 
indicated their readiness to offer military support. President 
Obama, Vice President Biden, Secretary Kerry, and I and others 
have been working, and will continue to work, to unite and 
expand this coalition.
    At the NATO Summit in Wales, Secretary Kerry and I convened 
a meeting of key partners in the coalition. I then went to 
Georgia and Turkey. The Georgians made clear that they want to 
help. Turkey, by virtue of its geography and its common 
interest in destroying ISIL, which is holding 46 Turkish 
diplomats hostage, will play an important role in this effort. 
Turkey joined our meeting in Wales, and Secretary Kerry and I 
continue to discuss specific contributions Turkey will make.
    Secretary Kerry convened a meeting in Jeddah last week with 
the foreign ministers from the six Gulf Cooperation Council 
nations, Egypt, Iraq, Jordan, and Lebanon, and all signed a 
communique to do their share in the comprehensive fight against 
ISIL, including joining in the many aspects of a coordinated 
military campaign against ISIL.
    Also, last week 22 nations of the Arab League adopted a 
resolution at their summit in Cairo calling for comprehensive 
measures to combat ISIL.
    Yesterday, in Paris, French President Hollande, who 
traveled to Baghdad last weekend, hosted a conference attended 
by United Nations (U.N.) Security Council Permanent Members, 
European and Arab leaders, and representatives of the European 
Union, Arab League, and U.N. They all pledged to help Iraq in 
the fight against ISIL, including through military assistance.
    Key allies, such as United Kingdom, France, and Australia, 
are already contributing military support, and other partners 
have begun to make specific offers.
    At next week's U.N. General Assembly, we expect that 
additional nations will begin making commitments across the 
spectrum of capabilities, building on the strong Chapter 7 U.N. 
Security Council Resolution adopted last month, calling on all 
member states to take measures to counter ISIL and suppress the 
flow of foreign fighters to ISIL.
    Also next week, President Obama will chair a meeting of the 
U.N. Security Council to further mobilize the international 
community. As you all know, former International Security 
Assistance Force (ISAF) Commander and Acting CENTCOM Commander, 
General John Allen, has been designated to serve as Special 
Presidential Envoy for the global coalition to counter ISIL. 
President Obama is meeting with General Allen this morning.
    General Allen will work in a civilian diplomatic capacity 
to coordinate, build, and sustain the coalition, drawing on his 
extensive experience in the region. He will be the 
administration's point man to coordinate coalition 
contributions and to build support within the region. He will 
work closely with General Austin to ensure that coalition 
efforts are aligned across all elements of our strategy.
    In his address to the Nation, the President outlined the 
four elements of this strategy to degrade and ultimately defeat 
ISIL. Let me now describe how we are implementing this whole-
of-government approach.
    First, in close coordination with the new Iraqi Government, 
we are broadening our air campaign to conduct systematic 
airstrikes against ISIL targets. To protect Americans 
threatened by ISIL's advances and to prevent humanitarian 
catastrophe, the U.S. military has already conducted more than 
160 successful airstrikes, which have killed ISIL fighters, 
destroyed weapons and equipment, and enabled Iraqi and Kurdish 
forces to get back on the offensive and secure key territory 
and critical infrastructure, including the Mosul and Haditha 
dams. These actions have disrupted ISIL tactically and have 
helped buy time for the Iraqi Government to begin forming an 
inclusive and broadbased governing coalition led by the new 
Prime Minister. That was one of President Obama's essential 
preconditions for taking further action against ISIL, because 
the Iraqi people must be united in their opposition against 
ISIL in order to defeat them. This will require a united and 
inclusive government. This is ultimately their fight.
    The new broader air campaign will include strikes against 
all ISIL targets and enable the Iraqi security forces, 
including Kurdish forces, to continue to stay on the offensive 
and recapture territory from ISIL, and hold it. Because ISIL 
operates freely across the Iraqi/Syrian border and maintains a 
safe haven in Syria, our actions will not be restrained by a 
border in name only. As the President said last week, ``If you 
threaten America, you will find no safe haven.''
    The President of the United States has the constitutional 
and the statutory authority to use military force against ISIL 
in Syria as well as Iraq. CENTCOM is refining and finalizing 
those plans, which General Austin will brief to the President 
tomorrow in Tampa. This plan includes targeted actions against 
ISIL safe havens in Syria, including its command and control, 
logistics capabilities, and infrastructure. General Dempsey and 
I have both reviewed and approved the CENTCOM plan.
    The second element of the strategy is to increase our 
support for forces fighting ISIL on the ground, the Iraqi and 
Kurdish forces and the moderate Syrian opposition. To support 
Iraqi and Kurdish forces, the President announced, last week, 
that he would deploy an additional 475 American troops to Iraq. 
Part of that number includes approximately 150 advisors and 
support personnel to supplement forces already in Iraq, 
conducting assessments of the Iraqi security forces. This 
assessment mission is now transitioning to an advise-and-assist 
mission, with more than 15 teams embedding with Iraqi Security 
Forces at the headquarters level to provide strategic and 
operational advice and assistance. The rest of the additional 
475 troops include 125 personnel to support intelligence, 
surveillance, and reconnaissance (ISR) missions out of Erbil 
and 200 personnel to increase headquarters elements in both 
Baghdad and Erbil, helping us better coordinate military 
activities across Iraq.
    By the time all these forces arrive, there will be 
approximately 1,600 U.S. personnel in Iraq responding to the 
ISIL threat. But, as the President said last week, American 
forces will not have a combat mission. Instead, these advisors 
are supporting Iraqi and Kurdish forces and supporting the 
government's plan to stand up Iraqi national guard units to 
help Sunni communities defeat ISIL.
    The best counterweights to ISIL are local forces and the 
people of the area. In June, the President asked Congress for 
the necessary authority for DOD to train-and-equip moderate 
Syrian opposition forces, and $500 million to fund this 
program. We have now secured support from Saudi Arabia to host 
the training program for this mission. Saudi Arabia has offered 
financial and other support, as well. The $500 million request 
the President made in June for this train-and-equip program 
reflects CENTCOM's estimate of the cost to train, equip, and 
resupply more than 5,000 opposition forces over 1 year. The 
package of assistance that we initially provide would consist 
of small arms, vehicles, and basic equipment, like 
communications, as well as tactical and strategic training.
    As these forces prove their effectiveness on the 
battlefield, we would be prepared to provide increasingly 
sophisticated types of assistance to the most trusted 
commanders and capable forces. Because DOD does not currently 
have the authority to conduct a train-and-equip mission, the 
administration has asked Congress to provide the authority in 
the Continuing Resolution (CR) it is currently now considering. 
A rigorous vetting process will be critical to the success of 
this program. DOD will work closely with the Department of 
State (DOS), the Intelligence Community, and our partners in 
the region to screen and vet the forces we train-and-equip. We 
will monitor them closely to ensure that weapons do not fall 
into the hands of radical elements of the opposition, ISIL, the 
Syrian regime, or other extremist groups. There will always be 
risks in a program like this, but we believe that risk is 
justified by the imperative of destroying ISIL and the 
necessity of having capable partners on the ground in Syria.
    As we pursue this program, the United States will continue 
to press for a political resolution to the Syrian conflict 
resulting in the end of the Assad regime. Assad has lost all 
legitimacy to govern and has created the conditions that 
allowed ISIL and other terrorist groups to gain ground and 
terrorize and slaughter the Syrian population. The United 
States will not coordinate or cooperate with the Assad regime. 
We will also continue to counter Assad through diplomatic and 
economic pressure.
    The third element of the President's strategy is an all-
inclusive approach to preventing attacks from ISIL against the 
homelands of the United States and our allies. In concert with 
our international partners, the United States will draw on 
intelligence, law enforcement, diplomatic, and economic tools 
to cut off ISIL's funding, improve our intelligence, strengthen 
homeland defense, and stem the flow of foreign fighters in and 
out of the region.
    The Department of Justice and the Department of Homeland 
Security have launched an initiative to partner with local 
communities to counter extremist recruiting. The Department of 
Treasury's Office of Terrorism and Financial Intelligence is 
working to disrupt ISIL's financing and expose their 
activities.
    The final element of the President's strategy is to 
continue providing humanitarian assistance to innocent 
civilians displaced or threatened by ISIL. Alongside the 
Government of Iraq, the United Kingdom, Canada, Australia, and 
France, U.S. troops have already delivered lifesaving aid to 
thousands of threatened Iraqi civilians on Mount Sinjar and the 
Iraqi town of Amirli. In total, the U.S. military conducted 32 
airdrops of food and supplies, providing over 818,000 pounds of 
aid, including nearly 50,000 gallons of water and nearly 
122,000 Meals Ready-to-Eat in these operations. In addition to 
this assistance, last week DOS announced an additional $48 
million in aid for civilian organizations to meet the urgent 
needs of Iraqis displaced by ISIL. Our total humanitarian 
assistance to displaced Iraqis is now more than $186 million 
for fiscal year 2014.
    The United States is also the single largest donor of 
humanitarian assistance for the millions of Syrians affected by 
the civil war. Last week, Secretary Kerry announced an 
additional $500 million in humanitarian assistance. Since the 
start of the Syrian conflict, the United States has now 
committed almost $3 billion in humanitarian assistance to those 
affected by the civil war.
    All four elements of this strategy require a significant 
commitment of resources on the part of the United States and 
our coalition partners.
    Mr. Chairman, I think everyone on this committee 
understands fully, this will not be an easy or a brief effort. 
It is complicated. We are at war with ISIL, as we are with al 
Qaeda. Destroying ISIL will require more than military efforts 
alone, it will require political progress in the region and 
effective partners on the ground in Iraq and Syria. As Congress 
and the administration work together, we know this effort will 
take time. The President has outlined a clear, comprehensive, 
and workable strategy to achieve our goals and protect our 
interests.
    Mr. Chairman, Senator Inhofe, thank you for your continued 
support, and that of this committee, and your partnership.
    Thank you.
    [The prepared statement of Secretary Hagel follows:]
              Prepared Statement by Hon. Charles T. Hagel
    Chairman Levin, Senator Inhofe, members of the committee: Chairman 
Dempsey and I appreciate this opportunity to discuss the President's 
strategy to degrade and ultimately defeat the Islamic State of Iraq and 
the Levant (ISIL).
    Today President Obama is in Atlanta meeting with CDC officials 
regarding the Ebola crisis, and will then travel to Tampa to receive a 
briefing from the Commander of U.S. Central Command (CENTCOM), General 
Lloyd J. Austin III, on operational plans to implement his ISIL 
strategy. I will join the President in Tampa tomorrow for that 
briefing.
    The Defense Department's civilian and military leaders are in 
complete agreement that the United States and our allies and partners 
must take action against ISIL, and that the President's strategy is the 
right approach.
    However, as President Obama has repeatedly made clear, American 
military power alone cannot eradicate the threats posed by ISIL to the 
United States, our allies, and our friends and partners in the region. 
Iraq's continued political progress toward a more inclusive and 
representative government--and its program of reform and 
reconciliation--will be critical. We believe that Iraq's new Prime 
Minister, Haider al-Abadi is committed to bringing all Iraqis together 
against ISIL. To support him and the Iraqi people in their fight, the 
coalition will need to use all its instruments of power--military, law 
enforcement, economic, diplomatic, and intelligence--in coordination 
with countries in the region.
    To succeed, this strategy will also require a strong partnership 
between the executive branch and Congress. The President has made it a 
priority to consult with Congressional leadership on the ISIL 
challenge, as have Vice President Biden, Secretary Kerry, and many 
senior members of the administration. I have appreciated the 
opportunities I've had to discuss the President's strategy with members 
of this committee and other members of the Senate and the House over 
the last couple of weeks. We will continue to consult closely with 
Congress as this campaign moves forward.
                  the isil threat to the united states
    ISIL poses a real threat to all countries in the Middle East, our 
European allies, and to America.
    In the last few months, the world has seen ISIL's barbarity up 
close as its fighters advanced across western and northern Iraq and 
slaughtered thousands of innocent civilians--including Sunni, Shia, and 
Kurdish Iraqis, and religious minorities. ISIL's murder of two U.S. 
journalists outraged the American people and exposed the depravity of 
ISIL's ideology and tactics to the world. Over the weekend, we saw 
ISIL's murder of a British citizen. ISIL now controls a vast swath of 
eastern Syria and western and northern Iraq, including towns and cities 
in these areas.
    ISIL has gained strength by exploiting the civil war in Syria and 
sectarian strife in Iraq. As it has seized territory across both 
countries and acquired significant resources and advanced weapons, ISIL 
has employed a violent combination of terrorist, insurgent, and 
conventional military tactics.
    ISIL has also been very adept at deploying technology and social 
media to increase its global profile and attract tens of thousands of 
fighters. Its goal is to become the new vanguard of the global 
extremist movement and establish an extremist Islamic Caliphate across 
the Middle East. It considers itself the rightful inheritor of Osama 
bin Laden's legacy.
    While ISIL clearly poses an immediate threat to American citizens 
in Iraq and our interests in the Middle East, we also know that 
thousands of foreign fighters--including Europeans and more than 100 
Americans--have traveled to Syria. With passports that give them 
relative freedom of movement, these fighters can exploit ISIL's safe 
haven to plan, coordinate, and carry out attacks against the United 
States and Europe.
    Although the Intelligence Community has not yet detected specific 
plotting against the U.S. Homeland, ISIL has global aspirations and, as 
President Obama has made clear, ISIL's leaders have threatened America 
and our allies. If left unchecked, ISIL will directly threaten our 
Homeland and our allies.
       building a coalition is key to president obama's strategy
    In his address to the Nation last week, President Obama announced 
that the United States will lead a broad multinational coalition to 
roll back the ISIL threat.
    More than 40 nations have already expressed their willingness to 
participate in this effort, and more than 30 nations have indicated 
their readiness to offer military support. President Obama, Vice 
President Biden, Secretary Kerry, and I and others have been working in 
recent weeks to unite and expand this coalition. At the NATO Summit in 
Wales, Secretary Kerry and I convened a meeting of key partners in the 
coalition. I then went to Georgia and Turkey. The Georgians made clear 
that they want to help. Turkey, by virtue of its geography and its 
common interest in destroying ISIL, which is holding 46 Turkish 
diplomats hostage, will play an important role in this effort. Turkey 
joined our meeting in Wales and Secretary Kerry and I continue to 
discuss specific contributions Turkey can make.
    Secretary Kerry convened a meeting in Jeddah last week with the 
Foreign Ministers from the six Gulf Cooperation Council nations, Egypt, 
Iraq, Jordan, and Lebanon . . . and all signed a communiquee to ``do 
their share in the comprehensive fight against ISIL, including . . . 
joining in the many aspects of a coordinated military campaign against 
ISIL.''
    Also last week, the 22 nations of the Arab League adopted a 
resolution at their summit in Cairo calling for comprehensive measures 
to combat ISIL. Yesterday in Paris, President Hollande of France--who 
traveled to Iraq last weekend--hosted a conference attended by the U.N. 
Security Council permanent members, European and Arab leaders, and 
representatives of the EU, Arab League and United Nations. They all 
pledged to help Iraq in the fight against ISIL, including through 
military assistance.
    Key allies such as the United Kingdom, France, and Australia are 
already contributing military support and other partners have begun to 
make specific offers. At next week's U.N. General Assembly, we expect 
that additional nations will begin making commitments across the 
spectrum of capabilities, building on the strong Chapter VII U.N. 
Security Council Resolution adopted last month calling on all member 
states to take measures to counter ISIL and suppress the flow of 
foreign fighters to ISIL. Also, next week President Obama will chair a 
meeting of the U.N. Security Council to further mobilize the 
international community.
    Former International Security Assistance Force Commander and Acting 
CENTCOM Commander General John Allen, has been designated to serve as 
Special Presidential Envoy for the Global Coalition to Counter ISIL. 
President Obama is meeting with General Allen this morning. General 
Allen will work in a civilian, diplomatic capacity to coordinate, build 
and sustain the coalition, drawing on his extensive experience in the 
region. He will be the administration's point man to coordinate 
coalition contributions and to build support within the region. He will 
work closely with General Austin to ensure that coalition efforts are 
aligned across all elements of our strategy.
                implementing president obama's strategy
    In his address to the Nation, the President outlined the four 
elements of this strategy to degrade and ultimately destroy ISIL. Let 
me now describe how we are implementing this whole-of-government 
approach.

    1.  Broader Air Campaign

    First, in close coordination with the new Iraqi Government, we are 
broadening our air campaign to conduct systematic airstrikes against 
ISIL targets.
    To protect Americans threatened by ISIL's advances and to prevent 
humanitarian catastrophe, the U.S. military has already conducted more 
than 160 successful airstrikes which have killed ISIL fighters, 
destroyed weapons and equipment, and enabled Iraqi security forces and 
Kurdish forces to get back on the offensive and secure key territory 
and critical infrastructure--including the Mosul and Haditha Dams.
    These actions have disrupted ISIL tactically, and helped buy time 
for the Iraqi Government to begin forming an inclusive and broad-based 
governing coalition led by the new Prime Minister. That was one of 
President Obama's essential preconditions for taking further action 
against ISIL, because the Iraqi people must be united in their 
opposition against ISIL in order to defeat them. This will require a 
united and inclusive government. This is ultimately their fight.
    The new, broader air campaign will include strikes against all ISIL 
targets and enable the Iraqi security forces--including Kurdish 
forces--to continue to stay on the offensive and recapture territory 
from ISIL and hold it.
    Because ISIL operates freely across the Iraqi-Syrian border, and 
maintains a safe haven in Syria, our actions will not be restrained by 
a border in name only. As the President said last week, ``if you 
threaten America, you will find no safe haven.''
    The President of the United States has the constitutional and 
statutory authority to use military force against ISIL in Syria as well 
as Iraq, and CENTCOM is refining and finalizing those plans, which 
General Austin will brief to the President tomorrow in Tampa. This plan 
includes targeted actions against ISIL safe havens in Syria--including 
its command and control, logistics capabilities, and infrastructure. 
General Dempsey and I have both reviewed and approved the CENTCOM plan.

    2.  Increased Support for Iraqi Security Forces and the Syrian 
Moderate Opposition

    The second element of the strategy is to increase our support for 
forces fighting ISIL on the ground--the Iraqi forces, including Kurdish 
forces, and the moderate Syrian opposition.
    To support Iraqi security forces and Kurdish forces, the President 
announced last week that we would deploy an additional 475 American 
troops to Iraq.
    Part of that number includes approximately 150 advisors and support 
personnel to supplement forces already in Iraq conducting assessments 
of the Iraqi security forces. This assessment mission is now 
transitioning to an advise-and-assist mission, with more than 15 teams 
embedding with Iraqi security forces at the headquarters level to 
provide strategic and operational advice and assistance.
    The rest of the additional 475 troops include 125 personnel to 
support intelligence, surveillance, and reconnaissance missions out of 
Erbil and 200 personnel to increase headquarters elements in both 
Baghdad and Erbil . . . helping us better coordinate military 
activities across Iraq.
    By the time all these forces arrive, there will be approximately 
1,600 U.S. personnel in Iraq responding to the ISIL threat. But, as the 
President said last week, ``American forces will not have a combat 
mission.''
    Instead, these advisors are supporting Iraqi security forces and 
Kurdish forces and supporting the government's plans to stand up Iraqi 
National Guard units to help Sunni communities defeat ISIL.
    The best counterweights to ISIL are local forces and the people of 
the area. In June, the President asked Congress for the necessary 
authority for the Department of Defense (DOD) to train-and-equip 
moderate Syrian opposition forces, and $500 million to fund this 
program.
    We have now secured support from Saudi Arabia to host the training 
program for this mission, and Saudi Arabia has offered financial 
support as well.
    The $500 million request the President made in June for this train-
and-equip program reflects CENTCOM's estimate of the cost to train, 
equip, and resupply more than 5,000 opposition forces over 1 year. The 
package of assistance that we initially provide would consist of small 
arms, vehicles, and basic equipment like communications, as well as 
tactical and strategic training. As these forces prove their 
effectiveness on the battlefield, we would be prepared to provide 
increasingly sophisticated types of assistance to the most trusted 
commanders and capable forces. Because DOD does not currently have the 
authority to conduct a train-and-equip mission, the administration has 
asked Congress to provide the authority in the Continuing Resolution it 
is currently considering.
    A rigorous vetting process will be critical to the success of this 
program. DOD will work closely with the Department of State, the 
Intelligence Community, and our partners in the region to screen and 
vet the forces we train and equip. We will monitor them closely to 
ensure that weapons do not fall into the hands of radical elements of 
the opposition, ISIL, the Syrian regime, or other extremist groups. 
There will always be risk in a program like this, but we believe that 
risk is justified by the imperative of destroying ISIL--and the 
necessity of having capable partners on the ground in Syria.
    As we pursue this program, the United States will continue to press 
for a political resolution to the Syrian conflict resulting in the end 
of the Assad regime. Assad has lost all legitimacy to govern, and has 
created the conditions that allowed ISIL and other terrorist groups to 
gain ground and terrorize and slaughter the Syrian population. The 
United States will not coordinate or cooperate with the Assad regime. 
We will also continue to counter Assad through diplomatic and economic 
pressure.

    3.  Preventing Homeland Attacks

    The third element of the President's strategy is an all-inclusive 
approach to preventing attacks from ISIL against the homelands of the 
United States and our allies. In concert with our international 
partners, the United States will draw on intelligence, law enforcement, 
diplomatic, and economic tools to cut off ISIL's funding, improve our 
intelligence, strengthen homeland defense, and stem the flow of foreign 
fighters into and out of the region. The Department of Justice and the 
Department of Homeland Security have launched an initiative to partner 
with local communities to counter extremist recruiting, and the 
Department of Treasury's Office of Terrorism and Financial Intelligence 
is working to disrupt ISIL's financing and expose their activities.

    4.  Continued Humanitarian Assistance

    The final element of the President's strategy is to continue 
providing humanitarian assistance to innocent civilians displaced or 
threatened by ISIL.
    Alongside the Government of Iraq, the United Kingdom, Canada, 
Australia, and France, U.S. troops have already delivered lifesaving 
aid to thousands of threatened Iraqi civilians on Mt. Sinjar and the 
Iraqi town of Amirli. In total, the U.S. military conducted 32 airdrops 
of food and supplies, providing 818,500 pounds of aid including 45,500 
gallons of water and nearly 122,000 meals ready-to-eat in these 
operations.
    In addition to this assistance, last week the Department of State 
announced an additional $48 million in aid for civilian organizations 
to meet the urgent needs of Iraqis displaced by ISIL. Our total 
humanitarian assistance to displaced Iraqis is now more than $186 
million in fiscal year 2014.
    The United States is also the single largest donor of humanitarian 
assistance for the millions of Syrians affected by the civil war. Last 
week, Secretary Kerry announced an additional $500 million in 
humanitarian assistance. Since the start of the Syrian conflict, the 
United States has now committed almost $3 billion in humanitarian 
assistance to those affected by the civil war.
                           a long-term effort
    All four elements of this strategy require a significant commitment 
of resources on the part of the United States and our coalition 
partners.
    This will not be an easy or brief effort. We are at war with ISIL, 
as we are with al Qaeda. But destroying ISIL will require more than 
military efforts alone . . . it will require political progress in the 
region, and effective partners on the ground in Iraq and Syria. As 
Congress and the administration work together, we know this effort will 
take time. The President has outlined a clear, comprehensive, and 
workable strategy to achieve our goals and protect our interests. Thank 
you for your continued support and partnership.
    Thank you.

    Chairman Levin. Thank you very much, Secretary Hagel.
    Thank you. [Directed to the audience.] Would you please 
leave? Would you please leave the room now? We are asking you 
nicely, but--we are asking you nicely to please leave the room. 
Look, we are asking you nicely. Would you please leave the 
room? Thank you. We have asked you for the last time. Thank you 
very much. Thank you for leaving, and--thank you. Goodbye.
    Now, as soon as the noise is removed from the room.
    We would ask all of you to avoid these kind of outbursts. 
They are not doing anybody any good, including hearing what 
this testimony is, and they are not doing you and whatever your 
cause is any good, either.
    Thank you very much. Would you please--I am asking you 
nicely to please leave the room. We are asking you again. Would 
you please remove this gentleman? Thank you very much. Goodbye. 
Goodbye. Thank you.
    General Dempsey.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Chairman Levin and Ranking 
Member Inhofe, members of the committee. I do appreciate the 
opportunity to appear before you this morning.
    Secretary Hagel has described in detail the elements of our 
strategy against ISIL. The role the U.S. military is taking is, 
in my judgment, appropriate. This is an Iraq-first strategy, 
but not an Iraq-only one.
    Job one is empowering the Iraqi ground forces to go on the 
offensive, which they are already beginning to demonstrate. 
This requires a partnership with a credible Iraqi Government, 
which is also showing positive signs of becoming inclusive of 
all of its population.
    Within this partnership, our advisors are intended to help 
the Iraqis develop a mindset for the offensive and to take 
actions consistent with offensive. Our military advisors will 
help the Iraqis conduct campaign planning, arrange for enabler 
and logistics support, and coordinate our coalition activities. 
If we reach the point where I believe our advisors should 
accompany Iraq troops on attacks against specific ISIL targets, 
I will recommend that to the President.
    As long as ISIL enjoys a safe haven in Syria, it will 
remain a formidable force and a threat. While this work in Iraq 
is taking place, we will simultaneously pressure ISIL in Syria. 
With coalition partners and contributions, we will begin 
building a force of vetted, trained, moderate Syrians to take 
on ISIL in Syria. We will work to ensure that they have a 
Syrian chain of command and report to a moderate political 
authority. This force will work initially at the local and 
community level and help pull together Syrians who have most 
felt the harsh hand of ISIL.
    In conjunction with that long-term effort, we will be 
prepared to strike ISIL targets in Syria that degrade ISIL's 
capabilities. This won't look like a ``shock and awe'' 
campaign, because that's simply not how ISIL is organized. But, 
it will be a persistent and sustainable campaign.
    I want to emphasize that our military actions must be part 
of a whole-of-government effort that works to disrupt ISIL 
financing, interdict the movement of foreign fighters across 
borders, and undermine the ISIL message. Given a coalition of 
capable, willing regional and international partners, I believe 
we can destroy ISIL in Iraq, restore the Iraq/Syria border, and 
disrupt ISIL in Syria.
    ISIL will ultimately be defeated when their cloak of 
religious legitimacy is stripped away and the population on 
which they have imposed themselves reject them. Our actions are 
intended to move in that direction. This will require a 
sustained effort over an extended period of time. It is a 
generational problem, and we should expect that our enemies 
will adapt their tactics as we adjust our approach.
    As the situation in the Middle East evolves and continues 
to demand our attention, we are also balancing other challenges 
in other regions, ebola being the most recent, along with 
reassuring our European allies against Russian aggression and 
continuing our mission in Afghanistan. Our young men and women 
in uniform are doing so much more. They conduct hundreds of 
exercises, activities, and engagements every day, actions that 
deter conflict and reassure allies around the world. They are 
performing magnificently.
    But, I am growing increasingly uncomfortable that the will 
to provide means does not match the will to pursue ends. The 
Secretary and I are doing what we can inside DOD to bridge that 
gap, but we will need your help. If we do not depart from our 
present path, over time I will have fewer military options to 
offer to the Secretary and to the President, and that is not a 
position in which I want to find myself.
    Thank you.
    Chairman Levin. Thank you very much, General Dempsey.
    We are going to have a 6-minute first round. We have a lot 
of us here, and we all want to have an opportunity. Then, if we 
go around once and have a reasonable hour facing us, we will 
try to have a very short second round. But, we just won't know 
that until we get to it.
    General Dempsey, let me start by asking you for your 
professional military opinion of the military strategy which 
was announced by the President last week. Do you personally 
support the strategy?
    General Dempsey. I do, Mr. Chairman.
    Chairman Levin. Can you tell us why?
    General Dempsey. Because the nature of the threat is such 
that, as I mentioned, it will only be defeated when moderate 
Arab and Muslim populations in the region reject it. Therefore, 
the way forward seems to me to run clearly through a coalition 
of Arab and Muslim partners, and not through the ownership of 
the United States in this issue.
    The strategy does that. It seeks to build a coalition, 
encourage an inclusive government to address the grievances 
that have caused this in the first place. It applies U.S. 
military power where we have unique capability to do so. Over 
time, it allows those populations to reject ISIL.
    Chairman Levin. In terms of utilizing the ground forces 
that are Syrian and Iraqi rather than western forces, is that 
part of the thinking at this time, as well, to avoid a western 
ground force in an Arab or Muslim country, for the same reason 
that you just gave?
    General Dempsey. I do think that the approach to build a 
coalition and enable it leaves me to leverage our unique 
capabilities, which tend to be, as I mentioned, the ability to 
train and plan and provide intelligence and provide air power.
    As I said in my statement, however, my view at this point 
is that this coalition is the appropriate way forward. I 
believe that will prove true. But, if it fails to be true, and 
if there are threats to the United States, then I, of course, 
would go back to the President and make a recommendation that 
may include the use of U.S. military ground forces.
    Chairman Levin. Secretary Hagel, you've made reference to 
this, but I would like you to elaborate how important is it 
that the coalition have very strong visible participation by 
Arab and Muslim states?
    Secretary Hagel. Mr. Chairman, you just reflected, in your 
question to General Dempsey, on the point, and I would pick up 
where General Dempsey left off. This is not a west-versus-east 
issue. This is not a U.S./European coalition against Muslim 
countries or a Muslim region. It's important that the world 
see, especially the people of the Middle East see, that the 
threat that is confronting them first, and all of us, needs to 
be addressed by the people of their region as well as all 
nations and all people in the world. To have Arab Muslim 
nations be present and public about their efforts in this 
coalition helps that. It's critically important to the ultimate 
success of winning against all extremist factors and factions 
in the Middle East, specifically ISIL.
    Chairman Levin. That same approach of having the people of 
these countries basically purge the strand of Islam that is so 
poisonous that is trying to take over in their countries, is 
one argument for using indigenous national forces on the ground 
rather than outside, and particularly western forces.
    Secretary Hagel. Yes. I said in my statement, Mr. Chairman, 
that the most significant powerful force against extremism in 
the Middle East is the people, themselves, who will not accept 
this kind of barbarity and brutality. The Muslims of the world 
know that what ISIL represents in no way is what their 
religion, what their ethnicity, what their background 
represents. To have the local forces be involved, supported by 
local people, is the most significant thing I think we can do 
as we support them, as we are doing and will continue to do in 
every way, to defeat ISIL and other extremist threats.
    Chairman Levin. I believe that you have testified that, on 
the equp and training of Syrian people--that the goal is to 
train-and-equip about 5,000 in 1 year. Now, how is that going 
to match up against the ISIL numbers? Let me just start with 
that one.
    Secretary Hagel. As I have said, and the President said, 
and General Dempsey has said, and I think in our briefings 
here, in our closed session briefings we have had with members 
of the Senate and the House and our staff here this week--5,000 
is a beginning, Mr. Chairman. This is part of the reason this 
effort is going to be a long-term effort.
    We will do it right. We will be able to train-and-equip 
these forces through our ability to give them tactical, give 
them strategic guidance in leadership, the kind of equipment 
they need, where they can move not just as bands of a few 
people, but as legitimate forces. Five thousand alone is not 
going to be able to turn the tide; we recognize that on this 
side. On the ISIL side, on the different estimates that 
continue to come out, those estimates float, Mr. Chairman, 
because it is hard to pinpoint at any one time exactly what the 
strength of ISIL is. We know it's significant. We know, because 
of their successes over the last few months, they have picked 
up significant support. We also know that a lot of that support 
is forced support, ``You will either be part of this or your 
family is killed, or you will be killed.'' It is an imperfect 
process.
    But, the 5,000 per year--and we may do better; we might be 
able to do better--but, we do not want to overstate or 
overpromise, because we want the right people, our part of the 
overall strategy that I articulated here, as outlined by the 
President.
    Chairman Levin. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I would ask that you turn the maps over. This is just for 
reference. We put this together, with the help of the military, 
with the help of some think tanks, and the colors represented 
there, the orange would be what is under ISIL control right 
now; the gray would be the Kurdish control; and then, the brown 
would be the ambitions of ISIL.
    Do you look at that map and find any problem with it, 
either one of you?
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    General Dempsey. Actually, Senator, in terms of their 
ambition, I think that is probably understating their ambition.
    Senator Inhofe. Yes.
    General Dempsey. I think, if left unaddressed, they would 
aspire to restore the ancient Kingdom of al-Sham, which 
includes the current state of Israel and runs all the way down 
to Kuwait.
    Senator Inhofe. Yes, we are trying to be conservative on 
this.
    General Dempsey. Yes.
    Senator Inhofe. But let people know, this is a big area.
    Secretary Hagel, do you have a problem with this?
    Secretary Hagel. No. I think General Dempsey stated it 
exactly right.
    Senator Inhofe. All right.
    Okay. According to some of the reports, the U.S. 
intelligence agencies believe that ISIL does not represent the 
immediate threat to the United States. In fact, Daniel 
Benjamin, who was President Obama's top counterterrorism 
advisor during his first term, he said, ``Members of the 
Cabinet and top military officers all over the place describing 
the threat in lurid terms that are just not justified.''
    I appreciate, Secretary Hagel, the statement you made when 
you said that ISIS poses ``an imminent threat to every interest 
we have, whether it's in Iraq or anyplace else.'' Do you still 
agree with that statement?
    Secretary Hagel. I do.
    Senator Inhofe. Do you, General Dempsey?
    General Dempsey. Yes, I do, Senator.
    Senator Inhofe. One of the things that I was glad to see is 
that for the American people, there's been a wake-up call. Last 
week, there was a CNN poll that said that 70 percent of the 
people in America believe it's a threat to our Homeland. Then 
yesterday, another one came out. This was a Wall Street Journal 
poll, the same thing, 70 percent of the people. I think that 
wake-up call has taken.
    Now, when President Obama--and this gets back to some of 
the statements you made in your opening remarks--he said, ``Our 
objective is clear. We will degrade and ultimately destroy ISIL 
through a comprehensive and sustained counterterrorism 
strategy.'' Now, it's clear--and we have talked about this 
side--this is an army. I outlined, in my opening statement, the 
six basic differences between al Qaeda and what we are facing 
right now. Do you generally agree with that?
    General Dempsey. What I generally agree with, Senator, is 
that they have been using conventional tactics until such time 
as we applied air power, and that they're beginning to adapt 
now.
    Senator Inhofe. Now you don't agree that that strategy that 
we would impose against terrorists or some group is appropriate 
today with looking in terms of the giant army that we are 
facing.
    General Dempsey. No, I agree we have to build the 
capability of the ISAF and the Pesh to address it 
conventionally while also including a counterterrorism 
component in our strategy.
    Senator Inhofe. Okay.
    Secretary Hagel, I would like to get in the record here as 
to who is in charge of the war, because we hear people like 
Ambassador Beecroft in DOS saying that they are in a lot of the 
control. If it's CENTCOM Commander Austin, then I feel a lot 
better about it. Is that who is in control of this? It's now 
military?
    Secretary Hagel. Yes. In my opening statement, Senator, I 
tried to frame some of that up, for example, what I mentioned 
about General Allen's role, initial role, as a coordinating 
role. But, I also said that he would work directly in that 
coordination with General Austin as the CENTCOM Commander. 
That's why President Obama will be with the CENTCOM Commander 
in Tampa tomorrow to go over the plan.
    Senator Inhofe. Sure.
    Mr. Secretary, my concern is, I don't want people to be 
under the delusion that this is just another terrorist effort 
that we are going to be pursuing.
    Asked by a reporter on September 11 to define victory 
against ISIL, the White House Press Secretary said, ``I didn't 
bring my Webster's Dictionary with me up here.'' Secretary 
Hagel, you didn't bring yours, either. Can you define what 
victory looks like to the United States against ISIL?
    Secretary Hagel. I believe victory would be when we 
complete the mission of degrading and destroying, defeating 
ISIL, just as the President laid out that was his objective.
    Senator Inhofe. Yes. I understand that. I got a different 
interpretation when I listened to his speech. When he said, on 
the fight against ISIL, ``It will not involve American combat 
troops fighting on the soil. American forces will not have a 
combat mission.''
    Let me ask you two questions, General Dempsey: First, in 
your opinion, are the pilots dropping bombs in Iraq, as they're 
now doing, a direct combat mission? Second, will U.S. forces be 
prepared to provide combat search and rescue if a pilot gets 
shot down, and will they put boots-on-the-ground to make that 
rescue successful?
    General Dempsey. Yes and yes.
    Senator Inhofe. Good. I appreciate that.
    The last question I have, because I know I have gone beyond 
my time. We have been complaining about what has happened in 
the funding, and now we are looking at the sequestration and 
all of this. In light of all of this that's occurred since we 
originally started talking about the funding that would be 
necessary, do you think we are adequately funded now to take 
care of all these things that we, as I stated in my opening 
statement and you have also agreed to? Where are we on our 
funding? Are we adequate?
    Secretary Hagel. Two answers to your question. No is the 
first basic answer. But, the budget that we will be coming up 
here presenting, in a few months, will contain what we believe 
is going to be required to carry forward, for the longer term, 
this effort. In the short term, this is why we are asking for 
the $500 million authority for the train-and-equip. Plus, the 
President had asked, a few months ago, for a $5 billion 
counterterrorism partnership fund, plus a billion-dollar 
European initiative fund, as well.
    I think what General Dempsey said in his closing comments 
in his statement probably summarized pretty well. As you have 
noted, all of the different pressures that are now coming down 
on this country, residing, a good amount of it, at DOD, one of 
the things that we have been warning about is sequestration 
over the last year and a half. We will come forward in our 
budget for the next fiscal year with some new requests.
    General Dempsey. If I could just elaborate? On behalf of 
the Joint Chiefs, because we've discussed this frequently about 
our ability to balance capability, capacity, and readiness.
    Last year, we said that the size of the force that was 
projected over the course of the POM, over the Future Years 
Defense Plan, was adequate to the task if the assumptions made 
were valid. Some of the assumptions we made were about 
commitments, and some of the assumptions we made were about our 
ability to get paid compensation, healthcare changes, 
infrastructure changes, and weapon systems. We didn't get any 
of those, actually, or very few of them, and the commitments 
have increased. We do have a problem, and I think it will 
become clear through the fall. It's not a problem that we can 
solve just with overseas contingency operations (OCO). That is 
to say, the operational contingency funds. There's a base 
budget issue here, too, we have to get at.
    Senator Inhofe. I know that's true. But, you mentioned the 
Chiefs, and Odierno and the other Chiefs have come and 
testified in this room before us that, even before these things 
erupted, it was not adequate. As we all know, risk increases 
when the adequacy is not met.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much.
    We have a quorum here now, and so I am going to ask the 
committee to consider the list of 2,458 pending military 
nominations. They have been before the committee the required 
length of time. Is there a motion to favorably report the 
nominations?
    Senator Inhofe. I so move.
    Chairman Levin. Is there a second?
    Senator Reed. Second.
    Chairman Levin. All in favor, say aye. [A chorus of ayes.]
    Opposed, nay. [No response.]
    The motion carries. Thank you very much.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
 Which are Proposed for the Committee's Consideration on September 16, 
                                 2014.
     1. MG Gustave F. Perna, USA, to be lieutenant general and Deputy 
Chief of Staff, G-4, U.S. Army (Reference No. 1465).
     2. Capt. Kathleen M. Creighton, USN, to be rear admiral (lower 
half) (Reference No. 1540).
     3. Capt. Todd J. Squire, USN to be rear admiral (lower half) 
(Reference No. 1545).
     4. In the Navy, there are three appointments to the grade of rear 
admiral (list begins with Brian B. Brown) (Reference No. 1590).
     5. In the Army, there are 417 appointments to the grade of major 
(list begins with Stephen R. Abrams) (Reference No. 1604).
     6. In the Army, there are 420 appointments to the grade of major 
(list begins with Isaiah C. Abbott) (Reference No. 1605).
     7. In the Army, there are 862 appointments to the grade of major 
(list begins with Jason K. Abbott) (Reference No. 1606).
     8. MG Steven L. Kwast, USAF, to be lieutenant general and 
Commander and President, Air University (Reference No. 1943).
     9. MG Terrence J. O'Shaughnessy, USAF, to be lieutenant general 
and Deputy Commander, United Nations Command Korea; Deputy Commander, 
U.S. Forces Korea; Commander, Air Component Command, Republic of Korea/
U.S. Combined Forces Command; and Commander, Seventh Air Force, Pacific 
Air Forces (Reference No. 1944).
    10. Col. Scott G. Perry, ARNG, to be brigadier general (Reference 
No. 1945).
    11. Col. Joseph J. Heck, USAR, to be brigadier general (Reference 
No. 1946).
    12. BG Mark S. Inch, USA, to be major general (Reference No. 1947).
    13. VADM Philip S. Davidson, USN, to be admiral and Commander, U.S. 
Fleet Forces Command (Reference No. 1948).
    14. RADM Dixon R. Smith, USN, to be vice admiral and Commander, 
Navy Installations Command (Reference No. 1949).
    15. In the Air Force, there is one appointment to the grade of 
lieutenant colonel (Lisa L. Adams) (Reference No. 1950).
    16. In the Air Force, there is one appointment to the grade of 
colonel (Richard D. Mink) (Reference No. 1951).
    17. In the Air Force, there are 11 appointments to the grade of 
major (list begins with David L. Allison) (Reference No. 1953).
    18. In the Army, there is one appointment to the grade of 
lieutenant colonel (Claudia D. Henderson) (Reference No. 1954).
    19. In the Army, there are 265 appointments to the grade of 
lieutenant colonel (list begins with Jesse Abreu) (Reference No. 1955).
    20. In the Army, there is one appointment to the grade of 
lieutenant colonel (Sun S. Macupa) (Reference No. 1956).
    21. In the Army, there are 450 appointments to the grade of 
lieutenant colonel (list begins with Brian S. Adams) (Reference No. 
1957).
    22. In the Army, there are 280 appointments to the grade of 
lieutenant colonel (list begins with Clark C. K. Adams II) (Reference 
No. 1958).
    23. In the Navy, there is one appointment to the grade of captain 
(Edward J. Eder) (Reference No. 1959).
    24. In the Navy, there is one appointment to the grade of 
lieutenant commander (William A. Burns) (Reference No. 1960).
    25. In the Navy, there is one appointment to the grade of 
lieutenant commander (Kevin L. Bell) (Reference No. 1961).
    26. In the Navy, there is one appointment to the grade of commander 
(Clayton M. Pendergrass) (Reference No. 1962).
    27. In the Navy, there are two appointments to the grade of 
lieutenant commander (Casey D. Ferguson) (Reference No. 1963).
    28. In the Navy, there are 71 appointments to the grade of 
lieutenant commander (list begins with Crystal R. Aandahl) (Reference 
No. 1964).
    29. In the Navy, there are 73 appointments to the grade of 
lieutenant commander (list begins with Cynthia N. Abella) (Reference 
No. 1965).
    30. In the Navy, there are 34 appointments to the grade of 
lieutenant commander (list begins with Christopher A. Adams) (Reference 
No. 1966).
    31. In the Navy, there are 35 appointments to the grade of 
lieutenant commander (list begins with Jesse D. Adams) (Reference No. 
1967).
    32. In the Navy, there are 30 appointments to the grade of 
lieutenant commander (list begins with Jon A. Angle) (Reference No. 
1968).
    33. In the Navy, there are 67 appointments to the grade of 
lieutenant commander (list begins with Todd A. Anderson) (Reference No. 
1969).
    34. In the Navy, there are 73 appointments to the grade of 
lieutenant commander (list begins with Austin G. Aldridge) (Reference 
No. 1970).
    35. In the Navy, there are 182 appointments to the grade of 
lieutenant commander (list begins with Alwin L. Albert) (Reference No. 
1971).
    36. LTG Tod D. Wolters, USAF, to be lieutenant general and Deputy 
Chief of Staff, Operations, Plans and Requirements, Headquarters, U.S. 
Air Force (Reference No. 2001).
    37. BG Veralinn Jamieson, USAF, to be major general (Reference No. 
2002).
    38. MG John W. Nicholson, Jr., USA, to be lieutenant general and 
Commander, Allied Land Command, North Atlantic Treaty Organization 
(Reference No. 2004).
    39. BG Paul M. Benenati, USAR, to be major general (Reference No. 
2005).
    40. BG Michael A. Calhoun, ARNG, to be major general (Reference No. 
2006).
    41. BG Bret D. Daugherty, ARNG, to be major general (Reference No. 
2007).
    42. In the Army, there are three appointments to the grade of 
brigadier general (list begins with Raul E. Escribano) (Reference No. 
2008).
    43. In the Army Reserve, there are three appointments to the grade 
of colonel (list begins with Herbert J. Brock IV) (Reference No. 2009).
    44. In the Army, there are 125 appointments to the grade of 
lieutenant colonel (list begins with Syed Ahmed) (Reference No. 2010).
    45. In the Army, there are 26 appointments to the grade of 
lieutenant colonel (list begins with Bradley Aebi) (Reference No. 
2011).
    46. In the Navy, there is one appointment to the grade of 
lieutenant commander (Gregory E. Oxford) (Reference No. 2012).
    47. In the Navy, there is one appointment to the grade of 
lieutenant commander (Benjamin I. Abney) (Reference No. 2013).
    48. In the Navy, there is one appointment to the grade of commander 
(Joel N. Peterson) (Reference No. 2014).
    49. In the Navy, there are eight appointments to the grade of 
captain (list begins with Gregory C. Cathcart) (Reference No. 2015).
    Total: 2,458.

    Chairman Levin. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony.
    General Dempsey, we have had a debate going on and on about 
no boots-on-the-ground, some boots-on-the-ground, no boots-on-
the-ground. It might help us all if you would clarify precisely 
what our forces are doing in Iraq today. You all suggested that 
if the situation changes, you might recommend or come to us 
with a recommendation that they would enhance their mission or 
change their mission. But, can you clarify what they are doing?
    General Dempsey. Yes, I can. Thanks for asking, Senator.
    First of all, I think everyone should be aware, when we 
talk about combat forces, that's all we grow. When we bring a 
young man or woman into the military, they come in to be a 
combat soldier or a combat marine--we don't bring them in to be 
anything other than combat-capable. But, that is different than 
how we use them. In the case of our contributions in Iraq right 
now, the airmen, as the ranking member mentioned, are very much 
in a combat role. The folks on the ground are very much in a 
combat advisory role. They are not participating in direct 
combat. There is no intention for them to do so. I have 
mentioned, though, that if I found that circumstance evolving, 
that I would, of course, change my recommendation.
    An example. If the Iraqi security forces and the Pesh were 
at some point ready to retake Mosul, a mission that I would 
find to be extraordinarily complex, it could very well be part 
of that particular mission to provide close combat advising or 
accompanying for that mission. But, for the day-to-day 
activities that I anticipate will evolve over time, I don't see 
it to be necessary right now.
    Senator Reed. One of the presumptions would be, because we 
are using air power, that there is sufficient capacity in the 
Iraqi forces to coordinate that air power on the ground? Is 
that the issue you are looking at, or that is an issue?
    General Dempsey. No, we have, Senator. Let me use the Mosul 
Dam operation as a great example of that. On the ground, we had 
the Peshmerga, and we had the counterterrorist service from the 
Iraqi security forces, and then, in an operation center in 
Erbil, we had our own folks, using predator feeds and a system 
we call the ROVER to be able to help the Iraqis manage the 
battle on the ground. Incredibly complex. Three languages: 
English, Kurdish, and Arab. We worked through it. It was a real 
challenge, but we worked through it. As we did, we learned some 
things about how to use advisors from remote locations.
    I am not saying this will work every place, every time. 
But, we pulled that mission off, and I think it's a good 
template for future operations.
    Senator Reed. I presume one of the areas you are really 
looking at is these capable Iraqis who can communicate and 
coordinate on the ground, their special forces particularly.
    General Dempsey. Trained by us, that's right.
    Senator Reed. Right.
    Mr. Secretary, the President's proposing to train about 
5,000 individuals a year to go back into Syria. The Saudis have 
agreed to host it in some manner. How do you integrate these 
forces back into Syria? Will they go in as units? What's the 
plan after they are trained? Because I think that is part of 
the issue.
    Secretary Hagel. Senator, one of the points that I made a 
couple of minutes ago, in answering Senator Inhofe's question, 
was the point about training them as units so they can operate 
as units, which is, with your military experience, critically 
important as you build an effective opposition force, not just 
a hit-and-run group of rebels, but an effective force--command-
control, tactics, strategy. So, yes, that is the fundamental 
training principle of how we begin.
    The length of the time here depends on a number of things, 
but we are probably talking about 8 weeks per cycle. That might 
move, within a week or 2, but that's the intent of how they 
would train up.
    The CENTCOM leaders are already focused on that, are 
already structured to do that, are preparing. One of the things 
the President will get tomorrow, as he spends the day with 
General Austin and the CENTCOM planners and commanders in 
Tampa, is taking him through that entire structure.
    Senator Reed. Thank you.
    General Dempsey, I think in your remarks, or the 
Secretary's remarks, you suggested that the immediate 
operations will probably most likely be in Iraq, simply because 
we have the Iraqi National Security Forces, we are already 
partnering them, we just conducted strike. That will put ISIL 
in the position of, as we hopefully become more effective, of 
making a decision to reinforce or to respond in Iraq and weaken 
them in Syria or to pull back into Syria. I think your strategy 
is probably the most effective use of what we have at the time, 
but would you like to comment on that?
    General Dempsey. The strategy is to squeeze ISIL from 
multiple directions so that they can't do what they have been 
doing, which is maneuver places where they're not under 
pressure. If we can get the Government of Iraq to reach out to 
these populations that have been disadvantaged during the 
Maliki regime so that the ISIL doesn't have a free-flowing 
stream in which to float, and if we can get the ISAF--and we 
have done an assessment of the 50 brigades of the ISAF around 
Baghdad, we know which ones are capable of partnering and 
improving their capabilities--if we can get enough of them to 
go on the offensive, both west and north, get the Peshmerga to 
squeeze from north to south, and then find a way, over time, in 
Syria initially to disrupt using air power, and eventually to 
pressure using a moderate opposition, then I think we place 
ISIL in an untenable position. In the middle of that, restore 
the border so they can't flow back and forth freely.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    I understand that, according to your testimony, we will be 
training and equipping approximately 5,000 in 1 year. Is that 
correct?
    Secretary Hagel. Yes.
    Senator McCain. The estimates for ISIL now are that there 
are some 31,000 metastasizing in a very rapid fashion into a 
much larger force. To many of us, that seems like an inadequate 
response to what----
    Chairman Levin. [Directed to the audience.] Would you 
please be quiet. I am asking you now to please leave the room. 
Please remove this lady. Please remove her. The disruptions are 
not going to be acceptable to anybody. They are not helping you 
in any way. Please remove the lady from the room. Thank you 
very much, to our Capitol Police officers. Thank you.
    Senator McCain. I always appreciate special attention from 
this group, Mr. Chairman. [Laughter.]
    Chairman Levin. Senator McCain.
    Senator McCain. Obviously, this group of 5,000, as you 
mentioned, in unit-sized deployments will be back in Syria, 
fighting against ISIL. They will also be fighting against 
Bashar Assad, which they have been doing for a number of years 
before ISIL was ever a significant factor. Now, they will be 
fighting against Bashar Assad. Bashar Assad will attack them 
from the air, which he has done, and with significant success, 
not only against them, but there's been 192,000 people who have 
been slaughtered in Syria since the onset. If one of the Free 
Syrian Army is fighting against Bashar Assad, and he is 
attacking them from the air, would we take action to prevent 
them from being attacked by Bashar Assad?
    Secretary Hagel. Senator, let me begin. To the first part 
of your question, the 5,000.
    Senator McCain. Dispense with that. I'd like to answer the 
question. If the Free Syrian Army units are attacked from the 
air by Bashar Assad, will we prevent those attacks from taking 
place and take out Bashar Assad's air assets, both helicopter 
and fixed wing, that will be attacking the Free Syrian Army 
units?
    Secretary Hagel. We're, first of all, not there yet, but 
our focus is on ISIL. That is the threat----
    Senator McCain. So we heard.
    Secretary Hagel.--right now to our country and to our 
interests and to the people of the region. What we are training 
these units for, yes, is a stabilizing force in Syria, as an 
option, but the first focus is, as I just said, as the 
President laid out in his statement to the country----
    Senator McCain. I take it from your answer that we are now 
recruiting these young men to go and fight in Syria against 
ISIL, but if they are attacked by Bashar Assad, we are not 
going to help them. Is that correct?
    Secretary Hagel. They will defend themselves, Senator.
    Senator McCain. Will we help them against Assad's air----
    Secretary Hagel. We will help them, and we will support 
them as we have trained them.
    Senator McCain. Will we repel Bashar Assad's air assets 
that will be attacking them?
    Secretary Hagel. Any attack on those that we have trained 
who are supporting us, we will help them.
    Senator McCain. I guess I am not going to get an answer. It 
seems to me that you have to neutralize Bashar Assad's air 
assets if you are going to protect these people that we are 
arming and training and sending in to fight.
    Is that inaccurate, General Dempsey?
    General Dempsey. The coalition we are forming, Senator, 
won't form unless--if we were to take Assad off the table, we 
would have a much more difficult time forming a coalition. I 
think what you are hearing us express is an ISIL-first 
strategy. I don't think we'll find ourselves in that situation, 
given what we intend to do with----
    Senator McCain. You don't think that the Free Syrian Army 
is going to fight against Bashar Assad, who has been decimating 
them? You think that these people you are training will only go 
back to fight against ISIL? Do you really believe that, 
General?
    General Dempsey. What I believe, Senator, is that, as we 
train them and develop a military chain of command linked to a 
political structure, that we can establish objectives that 
defer that challenge into the future. We do not have to deal 
with it now.
    Senator McCain. That's a fundamental misunderstanding of 
the entire concept and motivation of the Free Syrian Army. It 
is Bashar Assad that has killed many more of them than ISIL 
has.
    General Dempsey. I agree.
    Senator McCain. For us to say that we are going to go in 
and help and train-and-equip these people, and only to fight 
against ISIL, you're not going to get many recruits to do that, 
General. I guarantee you that. That's a fundamental fallacy in 
everything you are presenting this committee today.
    Secretary Hagel, was the President right, in 2012, when he 
overruled most of his national security team and refused to 
train-and-equip the moderate opposition in Syria at that time?
    Secretary Hagel. Senator, I was not there at the time, so I 
am limited----
    Senator McCain. I'll ask General Dempsey, then. He was 
there at the time.
    General Dempsey. I am sorry, Senator, when you asked the 
question----
    Senator McCain. Was the President right, in 2012, when he 
overruled his Secretary of Defense, Secretary of State, and 
Director of the CIA, and refused to train-and-equip the 
moderate opposition forces in Syria, which, according to your 
testimony, we are doing today?
    General Dempsey. Senator, you know that I recommended that 
we train them; and you know that, for policy reasons, the 
decision was taken in another direction.
    Senator McCain. Thank you.
    Are you concerned, Secretary Hagel, about our southern 
border? We received testimony from our Homeland security people 
that our border is porous and the people who are now free to 
travel to the United States and also other radical elements 
might cross our southern border to attack the United States?
    Secretary Hagel. I am always concerned about our borders.
    Senator McCain. I mean, is that a serious concern of yours?
    Secretary Hagel. I think we have to always look at these 
things as serious concerns.
    Senator McCain. In other words, do you think we have to 
improve our border security, especially on the southern border?
    Secretary Hagel. We can improve our border security.
    Senator McCain. Thank you.
    My time is expired.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator Nelson.
    Senator Nelson. Senator McCain, you're aware that there 
were published reports of covert training.
    Senator McCain. I am aware of it. I am also aware of the 
scale of the training that was required. I am also aware of the 
situation today. I am also aware 192,000 people have been 
slaughtered, a lot of them with these so-called ``barrel 
bombs,'' and the use of chlorine gas, which has caused a 
humanitarian disaster of incredible proportions. Yes, I am 
aware of that.
    Senator Nelson. General Dempsey, are you aware of the 
published reports of covert training?
    General Dempsey. Senator, we don't comment in public about 
any aspect of covert training.
    Senator Nelson. Mr. Secretary, I believe that the President 
has the constitutional authority to go on and attack ISIS. This 
is going to be for the long haul. Eventually, this issue will 
have to come to Congress for authorization for the use of 
military force. You all have an appropriations request right 
now.
    My question is, if Congress does not approve--and I have 
heard some Members of Congress say that they are not going to 
vote to approve this $500 million request--if they did that and 
refused before we adjourn to go home for the election, what 
kind of message do you think that sends?
    Secretary Hagel. I think that message would be very 
seriously misunderstood and misinterpreted by our allies, our 
friends, our partners around the world, and our adversaries. 
This is a clear threat, what the President has talked about, 
the threat to this country from ISIL, and what his request is, 
and reaching out to Congress for partnership as he has done, in 
consultation with many Members of Congress, to be partners in 
this effort to protect this country. If Congress would not 
agree to that request, it would be a pretty devastating message 
that we send to the world.
    Chairman Levin. [Directed to the audience.] All right, all 
right, would you please not take advantage of the freedom of 
this place? Will you please remove this lady from the room? 
Thank you. This disruption is not helping either the facts to 
be known or helping your cause in any way.
    Senator Nelson. Mr. Secretary, I've taken this position 
that I think the President has the constitutional authority to 
go on and attack inside Syria. The fact that you're making this 
request, and, as you've testified here today, that you'll train 
up 5,000 over the course of the next year, does that basically 
mean any kind of coordinated effort on the ground in Syria is 
delayed for a year?
    Secretary Hagel. If we don't have ground capability in a 
moderate opposition, yes, it affects a rather significant 
dimension of the overall strategy.
    Senator Nelson. Some people are saying that attacking ISIS, 
both in Iraq and Syria, is playing into their hands by them 
using that to divide Muslims against us. What is your opinion?
    Secretary Hagel. This is why the coalition, including, out 
front, publicly, Muslim Arab countries, is so critical to this. 
I think in one or two of my answers this morning, as well as in 
my testimony, I noted that.
    Senator Nelson. Can you shed any more light--as ISIS, as 
one of the two of you have testified, recedes into an urban 
area and takes shelter there among a civilian population, how, 
in Iraq, for example, can the Iraqi security forces be able to 
root them out of that civilian territory?
    Secretary Hagel. This, again, is why we need the people, 
themselves, in Iraq, in Syria, to support a unified unity, 
inclusive, representative government in Iraq to help them do 
that. The Sunni tribes are critical to this. What's allowed so 
much of this to happen, Senator, as you visited there many 
times, is--the last government in Iraq, over the last 5 years, 
have actually exacerbated the effort and intentionally 
destroyed the capability of a unity government to bring in the 
Sunni/Shia/Kurdish populations to a government that they would 
trust, that they could have confidence in, that they knew would 
work in everyone's interest. Your question cuts directly to the 
overall effort, here, of what the President talked about in a 
new, inclusive unity government, which we have some confidence 
in, but we believe that a body will do. So far, in his 
appointments to his cabinet, we have seen evidence of that 
inclusiveness.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Wicker.
    Senator Wicker. Thank you.
    Gentlemen, thank you for your testimony today.
    Here's how I view it. The surge in Iraq, ordered by 
President George W. Bush, worked. President Obama rejected the 
advice of many of his top military leaders to leave a residual 
force. Our administration did not make every effort that it 
possibly could to gain a Status of Forces Agreement in Iraq. We 
completely withdrew. Now ISIS is there, controlling large parts 
of the territory and wreaking the havoc that the President's 
responding to.
    I am willing to help the President, and to help you 
gentlemen, take this hill again if I believe there is a plan 
that will work and be successful. If training 5,000 troops by 
the end of 1 year is going to help us be successful against 
something that's already metastasized, and at 31,000, which is 
the size of ISIS now, I want to help, if we can be convinced it 
will work, and also if we can have some assurance that we will 
not throw away our gains this time, as we did after the surge 
worked.
    General Dempsey, in answer to the question by the chairman 
of this committee, ``Do you support the President's strategy?'' 
you say that you do. Now, the Washington Post reports that Mr. 
Obama has rejected the recommendation of his top military 
commanders that U.S. Special Operation Forces be deployed to 
assist Iraqi army units in fighting the rebels. Is that report 
by Rajiv Chandrasekaran correct, in the Washington Post? Where 
did you come down on that recommendation?
    General Dempsey. No, that report is not correct. Where I 
came down on the recommendation, in terms of having advisors 
accompany--this is the issue we're describing, whether 
advisors, who are already there and generally resident in 
headquarters--whether they would accompany the Iraqi security 
forces into combat. I have not come to an occasion where I 
believe that's necessary. They are doing fine. We're able to 
provide them air power using full motion video and systems----
    Senator Wicker. Who is doing fine?
    General Dempsey. The Iraqi security forces and the 
Peshmerga are moving back on the offensive.
    As I said, Senator, if I get to the point where, for a 
particular mission, I think they should accompany, I'll make 
that recommendation.
    Senator Wicker. Yes, and I did hear you say that, and I at 
least appreciate that.
    Let me submit for the record a column in today's Washington 
Post, Mr. Chairman, by Marc Thiessen, wherein he talks about 
General Lloyd Austin, a top commander, U.S. Forces in the 
Middle East. To quote Mr. Thiessen, ``In 2010, General Austin 
advised President Obama against withdrawing all U.S. forces 
from Iraq, recommending that the President instead leave 24,000 
U.S. troops to secure the military gains made in the surge and 
to prevent a terrorist resurgence. Had Obama listened to 
Austin's counsel, the rise of the Islamic State could have been 
stopped.'' Where did you come down on that debate, General 
Dempsey, at that point?
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
      
    General Dempsey. Actually, Senator, we don't debate 
anything in the military. We provide options and let our 
elected officials make their decisions.
    It's well known that all military leaders believed we 
needed to leave some residual force in Iraq to continue the 
development of the security forces. There is a debate, in which 
I am not a participant, about whether we tried as hard as we 
could to leave it there. That's a debate that will continue, I 
believe. But, I thought we should have left forces there. I 
traveled to Iraq, as the Chief of Staff of the Army at the 
time, and I discussed it with the Prime Minister.
    Look, I don't know how history will exactly describe this. 
Let me describe Nouri al-Maliki as a very difficult partner 
most of the time, and in particular on that issue.
    Senator Wicker. On the issue of trying hard enough, I think 
anybody that's really observed the situation would acknowledge 
that a U.S. Government that can go into Iraq today and persuade 
the Prime Minister to step down could certainly have mustered 
the skills to get them to sign a Status of Forces Agreement. 
It's obvious to me that we didn't try very hard.
    Let me just reiterate to you, I want us to win. I want us 
to defeat ISIS. But, I want a plan that can be successful, and 
I am not sure 5,000 trained in a year can be successful against 
31,000. I want to make sure that we don't make the same mistake 
again by throwing those gains away.
    One quick question to you, Secretary Hagel. In reading your 
testimony about what the coalition partners are going to do, I 
have no idea specifically what we are asking of them or what we 
can expect. They've expressed their willingness, they've 
indicated their readiness, they want to help, to do their 
share, begin making commitments, take measures to suppress the 
flow. I have no idea, based on your testimony, what our 
coalition partners are expected to do, or even what we want 
them to do.
    Secretary Hagel. Senator, my intent was not to give you 
that inventory this morning and go through that.
    Senator Wicker. Are you able to?
    Secretary Hagel. We can do that privately, in closed 
session, with a number of countries. That's what we're doing 
right now. We're in the process of doing that right now. As I 
mentioned, over the last 2 weeks, we've been building the 
coalition. We've been organizing the coalition. General Allen's 
main job, as I noted in my testimony, is doing that right now. 
He's meeting with the President this morning. We have all 
finalized that effort. We have a list of over 40 nations who we 
have talked to. Most have come to us, who have volunteered 
specific areas of expertise, what they would do. We'll make 
specific requests. That's ongoing right now. That's part of the 
plan the President discussed.
    Senator Wicker. Will Saudi pilots in Saudi jets be involved 
in airstrikes?
    Secretary Hagel. Like I said, it's part of the plan, and I 
don't want to get into the specifics of that in an open 
hearing. But, as I said in my testimony, as Secretary Kerry has 
said as recently as yesterday, we have Middle Eastern allies 
who have said that they will be involved in military operations 
with us. For right now, at an open hearing, let me leave it 
that way.
    Chairman Levin. Thank you.
    Secretary Hagel. Let me assure you that that is going on 
right now, and it's a key part of what we need to do.
    General Dempsey. If I could assure the Senator that, when 
Lloyd Austin and I convene a Chief of Defense Conference soon, 
after the President approves the campaign plan, there's a 
couple of things we have to accomplish. One is, we need to make 
the campaign plan the Iraqi campaign plan, not CENTCOM's 
campaign plan. Second, the contributions of, in particular, the 
Arab nations need to be real. This is military, now. I'm not 
looking for political support, I'm looking for special forces 
advisors, I'm looking for trainers, I'm looking for tankers, 
I'm looking for ISR, and I'm looking for strike aircraft.
    Chairman Levin. Thank you very much, Senator Wicker.
    Senator Wicker. Thank you.
    Chairman Levin. Senator McCaskill?
    Senator McCaskill. Just to clarify a different set of 
circumstances, when Maliki and the Government of Iraq told us 
to get out and refused to do a Status of Forces Agreement, I am 
pretty sure Iran was with them on that, correct? Iran was very 
close to Maliki, and Iran wanted us out of Iraq as much as the 
Iraqi Government did at that point in time. Is that a correct 
assessment, Secretary Hagel and General Dempsey?
    General Dempsey. Yes, I guess I'm stuck with this one 
because I was the one here, right? Here I am, I said I did not 
want to get into the debate; now I am in the debate.
    You know what? Who knows what was going through Prime 
Minister Maliki's head at the time. I can tell you from 
personal contact with him, he had a almost obsessive notion of 
his sovereignty and wanting to establish it. Was he influenced 
by Iran? Undoubtedly.
    Senator McCaskill. Right.
    General Dempsey. It is pretty hard to say, Senator. But, 
what I will tell you, he was a very reluctant partner.
    Senator McCaskill. I guess the point I am trying to make 
is, it's a much different situation now, in terms of getting 
Maliki to step down. Iran was very concerned about ISIL taking 
over Iraq and what that meant. Clearly there was pressure being 
exerted for Maliki to step down, by Iran. I think, for us to 
take credit for getting Maliki to step down is unrealistic, in 
light of what the geopolitical forces were in their neck of the 
woods at that point in time.
    Secretary Hagel. I was here, on this episode, and I can 
tell that it wasn't the United States that pushed Maliki out; 
it was his own people, Iran being part of that. It wasn't the 
United States dictating that Maliki stay or not stay. Let's not 
forget that Iraq is a sovereign nation, it has elections. We 
may not like the outcomes, but it is a sovereign country. That 
was the entire point when President Bush signed the December 
2008 agreement to leave Iraq.
    Senator McCaskill. Right.
    Secretary Hagel. It was a sovereign nation. The United 
States didn't force or push, through some new system of 
influence, Maliki out. It was the people that made that 
decision.
    Senator McCaskill. I want to touch on the issue of the Shia 
militia. As we looked at the surge, one of our successes in the 
surge was certainly our ability to bring over moderate Sunnis. 
That was noted at the time and talked about a great deal, about 
our ability to finally get the cooperation of a lot of moderate 
Sunnis. Clearly, the moderate Sunnis have thrown in with ISIL 
because of the political problems that they were confronted 
with, in terms of exclusion from the Iraqi Government. The 
clerics put out the call to repel ISIL to the Shia militias, 
and they have been partially responsible for the successes that 
have occurred on the ground.
    What are we doing? This is just one of many complex 
problems that presents itself in this tangle that we are in. 
One of the most complex is, how are we going to deal with the 
empowerment of the Shia militia within the Iraqi security 
forces, moving forward, as we try to ultimately get a political 
solution, which is a unified government and security forces 
that represent all parts of that country?
    General Dempsey. Couple of things, Senator. One is, I'm a 
little reluctant--in fact, I try not to ever talk about ``the 
Sunni'' as a monolithic block. If the Senator's chart was still 
up there, it looks like ISIL has geographic objectives. It 
actually has tribal objectives. It eats its way tribe by tribe, 
wherever it goes. The fact that it ends up in Mosul is actually 
more happenstance of the tribe they are trying to pursue. If we 
showed the tribes on that slide, there would probably be 48 to 
54 different tribes that ISIL has, in some ways, coerced or co-
opted or driven away. The Sunni are not monolithic in any 
sense, and we have to remember that.
    The second thing is, on your question about the Shia 
militia. I think our offer of support, here, will be 
conditional. For example, there were 50 Iraqi brigades that we 
assessed, 26 of them we assessed to be reputable partners. That 
is, to say, they have remained multi-confessional, they are 
well-led, they still have their equipment, they seem to have a 
certain cohesion and a commitment to the central government. 
The other 24 concerned us a bit on the issue of infiltration 
and leadership and sectarianism.
    We can apply our support conditionally, and that's the way 
we influence the outcome I think you're discussing.
    Senator McCaskill. Finally, I'm assuming that this is a 
contingency operation and wanted to point out that the new 
provisions of the war contracting legislation that have been 
put into law should be applicable for this effort. I know that 
there is some talk that you've asked for cost estimates for 
security assistance mentors and advisors in Iraq through a 
contracting platform. I don't know, are we building training 
facilities in Saudi, the American Government? If so, I just 
wanted to sound the alarm now, before rather than after, that 
all these contracting provisions that we've worked so hard to 
get into place, that we don't go down the road of mistakes that 
we have traveled so frequently around this contracting space in 
contingencies.
    Secretary Hagel. I can assure you, Senator, that any 
commitments we made, in contracting or anything else, we will 
follow the law clearly and consult with Congress.
    Senator McCaskill. Thank you.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman.
    I want to thank both of you for your service during these 
challenging times.
    I wanted to follow up, General Dempsey, on a question that 
Senator Wicker had asked you about, about providing our 
advisors or our Special Forces, embedding them with the Iraqi 
forces. I believe you said that you don't believe that that is 
necessary right now. Would you agree with me, though, that 
airstrikes are much more effective with having our Special 
Forces, or having a Joint Terminal Air Controller (JTAC) 
capability, in terms of the effectiveness of strikes on the 
ground, with our people?
    General Dempsey. It depends on the kind of contact that the 
two forces are having. Please let me explain.
    When the two forces are separate, when ISIL is at some 
geographic separation from the Iraqi security forces, it's not 
very difficult at all to discriminate between the targets.
    Senator Ayotte. Sure. Isn't our problem with when they are 
not out in open space, when we have to distinguish between, for 
example, civilian targets and military targets, that our people 
are very effective at that?
    General Dempsey. Yes, absolutely. That is where I was 
headed. If we get into a circumstance where the forces are very 
intermingled, then the target discrimination becomes more 
difficult.
    I will say, this isn't a light switch, either you do it or 
you don't. There are technologies available, that we didn't 
have 5 years ago, that allow us to actually apply force and to 
see the situation on the ground in ways we couldn't before. I'm 
not walking away from what I said. If we get to the point where 
I think we need the JTAC with the Iraqi security forces, I'll 
make the recommendation. But, I'm not there.
    Senator Ayotte. You do not think we need that at this time?
    General Dempsey. I do not.
    Senator Ayotte. Can I ask you a question? What was General 
Austin's thought on this, given that he's the CENTCOM Commander 
and his prior experience in Iraq?
    General Dempsey. On the Mosul Dam operation, the one I 
described earlier, which was very complicated, of the two 
different forces speaking two different languages, he did 
suggest that we should use the JTACs in an accompanying role. 
As we discussed it and worked through it, he found a way to do 
it, as I described it to you.
    Senator Ayotte. He has not made recommendations, beyond the 
Mosul Dam operation, that we should embed our Special Forces 
or, certainly, JTAC capability with the forces?
    General Dempsey. Not at this time. No, he shares my view 
that there will be circumstances when we think that'll be 
necessary, but we haven't encountered one yet.
    Senator Ayotte. I think we've had experience with this, 
though, haven't we, prior in Iraq, with having our forces 
embedded, and also with Afghanistan, of our people being quite 
effective, in terms of targeting the airstrikes? You would 
agree with me?
    General Dempsey. Absolutely. We know how to do that.
    Senator Ayotte. Yes. Thinking about as we are dealing with 
civilian populations, I'm not confident how this is going to 
happen without the assistance of our trained special operators 
on the ground, here.
    But, I appreciate that you've said that you have not ruled 
this out.
    General Dempsey. I have not, in terms of recommendations.
    Senator Ayotte. Thank you. Has the President ruled it out?
    General Dempsey. At this point, his stated policy is that 
we will not have U.S. ground forces in direct combat. So, yes.
    Senator Ayotte. Including operators and JTAC embedded on 
the ground.
    General Dempsey. That's correct. But, he has told me, as 
well, to come back to him on a case-by-case basis.
    Senator Ayotte. Let me ask you about the threat that we 
face, Secretary Hagel, General Dempsey. So, General Allen, who 
I have great respect for, and I know both of you do, as well, 
he has been appointed the Special Presidential Envoy for the 
global coalition to counter ISIL. We all know his experience, 
not only in Iraq, but in Afghanistan. He has described in 
August ISIL as a clear and present danger to the United States. 
Do you agree with his characterization?
    Secretary Hagel. Senator, I was asked the question earlier, 
whether I agreed, still, with what I had said. My words were 
quoted back to me about an imminent threat to America's 
interests around the world. I said, yes, I do, ISIL is a threat 
to America, our allies, our interests around the world. I'm not 
going to answer for General Allen, but I think we all agree, at 
least within the administration--General Allen, General 
Dempsey, General Austin, me, the President, others--that ISIL 
is a threat. I said that in my testimony. The President of the 
United States said it last week in his speech.
    Senator Ayotte. Do you believe it's a present threat to us?
    Secretary Hagel. A present threat, meaning they murdered 
two Americans over the last couple of weeks. I'd say that's a 
pretty imminent threat.
    Other threats that they have in--and how they threaten us--
--
    Senator Ayotte. Yes, I would agree. Our prayers continue to 
go out to the Foley and Sotloff families, who--Jim Foley was 
from New Hampshire, and Steven Sotloff went to school in New 
Hampshire, so I believe it's an absolute clear and present 
threat to us.
    Let me ask you about the Americans who have joined. In the 
Senate Homeland Security and Governmental Affairs Committee 
last week, we had testimony from our top Homeland security 
officials, as well as from the Federal Bureau of Investigation 
(FBI), about the 100 Americans that have either gone to Syria 
or attempted to go to Syria. What I learned was that this is 
not a firm number. How confident are we that we have track of 
these individuals, that we know that there's only 100 involved?
    I would ask the same question with regard to those who are 
holding Western passports, where we know that many of those 
countries--unfortunately, Jim Foley's murderer had a British 
accent, and we have a visa waiver program with Great Britain. 
How confident are we in those numbers, as we look at this 
Homeland threat, the ability and track of those individuals to 
come back to the United States of America in some way.
    Secretary Hagel. Senator, I think, like any of these 
threats, they always present imperfect situations. When you ask 
``how confident,'' we are as confident as we can be, but you're 
constantly working at trying to make it better, more secure. I 
announced today in my testimony, it was announced a couple of 
days ago, what we're doing with Homeland security, what we're 
doing with the Deparment of Justice, what we're doing with our 
Border Patrol, in coordination with all of these other nations, 
on identifying these individuals that we do know, or we are 
pretty sure of, are in the Middle East, Syria, or wherever. 
There may be some we don't know. We're constantly refining and 
focusing on this. I don't think we can ever be too confident 
that we have it all. But, we have some confidence that we do 
have the numbers about right.
    Senator Ayotte. I thank you. My time is up. What I heard in 
the Senate Homeland Security and Governmental Affairs Committee 
last week did not give me a great degree of confidence, in 
terms of what we don't know, because the FBI has basically said 
that 100 number could be many more; and also we know less, 
even, about those where we do not always have full 
intelligence-sharing with all the Western passport-holders.
    Secretary Hagel. No, that's right.
    Senator Ayotte. I think this is a real issue for us.
    Secretary Hagel. It is an issue.
    Senator Ayotte. Thank you.
    Secretary Hagel. Thank you.
    Chairman Levin. Thank you.
    Senator Wicker made a request that I failed to acknowledge, 
that a column from the Washington Post be inserted in the 
record. It will be inserted in the record.
    I will also insert in the record Secretary Gates's 
paragraph, which reads as follows in his book: ``In the end, 
the Iraqi leadership did not try to get an agreement through 
their parliament that would have made possible a continued U.S. 
military presence after December 31. Maliki was just too 
fearful of the political consequences. Most Iraqis wanted us 
gone.''
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning, gentlemen.
    It is very clear that ISIL presents a very serious threat 
to U.S. interests and allies in the Middle East, and the 
group's actions have left no doubt that it's going to take both 
brains and brawn to defeat them. We have to hit them hard. We 
have to deny them safe haven. We have to bring strategic 
capabilities of the United States and a committed international 
alliance to bear against them. We need to work with our 
partners on the ground to eliminate the conditions that have 
allowed this cancer to spread so quickly. The rise of ISIL 
should serve as a warning to leaders throughout the Middle 
East. I would urge, as I think we all have, that the new Iraqi 
Government must take immediate steps to move past the 
shortsighted and harmful policies that have contributed to the 
current crisis.
    This is going to take our best effort. I know we have it in 
us. We do need to get it right.
    General Dempsey, in that spirit, let me direct a question 
to you. In order to defeat this enemy, we will need to be tough 
and smart. You noted, last month, that defeating ISIL will 
require all application of all tools of national power: 
diplomatic, economic, information, and military. Could you 
describe how these tools would be used as part of a well-
planned international effort to confront this threat?
    General Dempsey. First, let me align myself with your 
assertion that an inclusive Government of Iraq that reconciles 
the three major groups--Sunni, Shia, and Kurd--is absolutely a 
necessary precondition to the defeat of ISIL inside of Iraq.
    To your point, there has to be an integration of 
diplomatic, economic, in the sense of support for the 
Government of Iraq, as well as counterfinancing efforts so that 
the money that a Senator previously described that ISIL is 
garnering every day can be interdicted, tracked, and disrupted, 
the flow of foreign fighters. Those are strategic regional 
issues, really, because ISIL knows no boundaries, knows no 
borders. It's not a matter of convenience that we form a 
coalition, it's a matter of necessity.
    Strategically and tactically, we have to get enough of the 
Iraqi security forces and enough of the Peshmerga to go from 
defense to offense, to put it about as bluntly as we can. As we 
do, the Government of Iraq has to fill in behind that.
    To be candid, the three big risks that I would mention to 
you are if the Government of Iraq fails to become inclusive--
and, though the signs are promising, they haven't yet fully 
delivered; second, if a coalition forms, but doesn't have 
endurance--because this is going to take several years; and 
then the third risk is retribution--when we encourage and 
assist the Iraqi security forces and the Pesh to regain lost 
territory, we have to be alert for the fact that, unless the 
Government of Iraq is there to embrace the people and show that 
they work together, there could be some retribution on the part 
of those who may have been seen as complicit with ISIL.
    We have some challenges ahead, but we are open-eyed to 
them, and I think we have a good campaign plan.
    Senator Udall. I'd follow up on that. You have significant 
experience on the ground in Iraq, and I think you know the 
region as well as anyone. Our military will be able to provide 
advice and assistance, clearly, but can you explain the reasons 
why it's important for the Iraqi security forces to take the 
lead in fighting back against ISIL on the ground?
    General Dempsey. The author, Tom Friedman, has a famous 
saying that, ``no one in the history of mankind has ever washed 
their rental car.'' I find that to be a good way to remember 
that ownership is ultimately what measures commitment. I think 
it's clear that they have to own this--with our help and with 
the help of regional partners, but they have to own it.
    Senator Udall. I talked with Senator Graham last week, and 
we were discussing the fact that it's, I think, now time for 
the Arab leaders to really, truly step up. If this isn't an 
existential threat to them, it's certainly close to one. I 
think that's what you are saying and what we're saying, as the 
United States.
    Mr. Secretary, good to see you. Do you consider ISIL to be 
an associated force of al Qaeda? Could you explain your 
reasoning?
    Secretary Hagel. It has been an associated force of al 
Qaeda. It has, over time, essentially displaced al Qaeda. But, 
there are still affiliations, to this day. However, it has been 
associated with al Qaeda.
    Senator Udall. General Dempsey, let me turn back to you. 
We've been talking about Syria. It's, I think, one of the most 
complex military environments we've ever seen. As you plan the 
mission to train-and-equip moderate Syrian opposition forces, 
how does DOD define ``moderate,'' and how do we take further 
steps to ensure that the weapons and the training we provide 
won't fall into the hands of these extremists groups?
    General Dempsey. Senator, I'd suggest to you that, though I 
recommended doing this a couple of years ago, we've learned a 
lot in the intervening time. We've learned a lot because of the 
nonlethal assistance we've provided, because we've had to make 
contacts with certain groups in order to flow that nonlethal 
assistance. We've learned a lot, as well, from our coalition 
partners who have been interacting with the Free Syrian Army. 
We also have learned some lessons in vetting in places like 
Iraq and Afghanistan. We are very closely partnered with our 
intelligence agencies. I would suggest to you that we've come a 
long way in our ability to vet.
    In terms of defining a moderate opposition, I don't think 
that'll be as difficult, actually. The region has become so 
polarized that those who are radical in their ideologies have 
made their move, and those that have not have actually 
demonstrated great courage in not making a move.
    I think we'll be able to find the moderate opposition. I 
hope we can find them in the right numbers.
    By the way, the 5,400 is capacity. It's just what we can 
throughput at several training bases in the course of a year. 
As the Secretary said, it's not the desired end state for a 
moderate Syrian opposition.
    One last thing about developing a Syrian opposition. It 
really needs to be developed with a chain of command responsive 
to some Syrian political structure, not responsive to us. These 
can't be simply surrogates and proxies; they have to be tied, 
linked to some political structure that ultimately could assist 
in the governing of Syria when, finally, the Assad regime is 
either overthrown or, through the negotiation, is changed.
    The important difference in what we're trying to do, here, 
is build a force that can, over time, actually contribute to 
stability in Syria, not just fight.
    Senator Udall. Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Udall.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman.
    Thank you both for your service, very much.
    Did either or both of you give the President any advice 
regarding a possible new Authorization for Use of Military 
Force (AUMF)? If so, what was it?
    Secretary Hagel. Senator, obviously the question of 
authority was asked early on as we developed a strategy and our 
advice to the President. Does he have the constitutional 
authority which he believes he does? His legal counsel told him 
he did. Does he have the statutory authority, which he believes 
he does, and he has said that as to his legal counsel saying 
the same thing. We believe that he has both statutory and 
constitutional authority. That was a recommendation that I 
made.
    He also noted, as you recall from last week's statement to 
the American public, that he welcomed any additional authority 
that the President would give him, because he, feeling strongly 
that it is important that a strong partnership between Congress 
and the President always be established and always be seen in 
the eyes of the world.
    Senator Vitter. Let me restate my question. You're saying 
he has legal authority without a new AUMF. A new AUMF could, 
nevertheless, be helpful. Did either or both of you give him 
advice about whether to seek one?
    Secretary Hagel. I'll speak for myself, and the Chairman 
can answer it. I did not advise him to seek any additional 
authority. I asked our general counsel and our attorneys what 
they thought, but I did not specifically say to----
    Senator Vitter. General?
    General Dempsey. No, I haven't had a conversation in the 
interagency about what a new AUMF would look like.
    Senator Vitter. Okay. The current estimate of ISIS fighters 
is about 35,000. Is that correct?
    General Dempsey. I think the last number I saw was actually 
31,000, but it's an inexact science because of the fact that 
there are tribes that are coopted.
    Senator Vitter. Right.
    General Dempsey. Sometimes they would be counted in that 
number, but their heart's not in it. But, the latest number is 
31,000. Right.
    Senator Vitter. That number in the low- to mid-30s is 
clearly a huge growth over the last several months, correct?
    General Dempsey. It is. I assess it's growth because of 
their success. The reporting probably lags facts on the ground. 
When that report was assembled, they were at their height of 
success.
    Senator Vitter. What's your best guesstimate about what it 
might be a year from now?
    General Dempsey. I haven't formed one, so I'd be happy to 
take that one for the record.
    [The information referred to follows:]

    The environment that the Islamic State of Iraq and the Levant 
(ISIL) will find themselves operating in the next year combined with 
the continuing pressure by coalition forces will influence the size and 
reach of ISIL in 2015. We have low confidence in the current estimate 
of 31,000 ISIL members and armed Sunni supporters. Continued pressure 
by coalition forces through military operations, reinforced with 
efforts to stem recruitment and deny movement of foreign fighters, 
could cause ISIL's size to fall below current estimates.

    Senator Vitter. Okay. Given that number, and presumably 
increasing numbers, I take it everyone agrees some fighting 
force on the ground on the other side is necessary. What do you 
think that number has to be over time?
    General Dempsey. Do you mean the other side of the border, 
sir, or do you mean----
    Senator Vitter. No, no, no. I mean our side of the fight 
against ISIS.
    General Dempsey. In Iraq, I think the combined forces of 
that part of the Iraqi Security Forces remain viable, and the 
Pesh, is adequate to the task of defeating ISIL in Iraq. I have 
concerns about the Syria side of this, for obvious reasons.
    Senator Vitter. Again, what do you think the Syrian number 
on our side of the fight needs to move to?
    General Dempsey. The problem on the Syrian side is less 
about how big the moderate opposition should become and more 
about how the lack of an inclusive government in Damascus 
affects the equation. In other words, the environment inside of 
Syria remains ripe for groups like ISIS because of the 
unwillingness of the Syrian regime to reach out to the Sunni 
population, which makes it challenging to determine how big a 
ground force would have to be.
    Senator Vitter. I mean, do you have any number in mind, any 
guesstimate about, as we speak, what would be a minimal optimal 
ground force?
    General Dempsey. Some time ago when this came up, in 
looking at the kind of tasks that we might assign to a force of 
that size, to include, for example, restoring the Syrian side 
of the Iraq/Syria border, the number that our military planners 
were considering was about 12,000.
    Senator Vitter. Okay. Besides training up Syrians on our 
side, what are the plans to add to that number to come up with 
a significant fighting force on our side in Syria?
    General Dempsey. Besides the train-and-equip mission we've 
just described--or we're describing?
    Senator Vitter. I mean, I take it the train-and-equip 
mission we're all in favor of can't approach that number 
anytime soon, that we know of.
    General Dempsey. That's why I've said, consistently, this 
takes a persistent and enduring commitment. But, not anytime 
soon, that's correct.
    But, I'll tell you, if you're asking me, ``How does the 
opposition in Syria finally prevail against ISIL?''--I think 
it's going to require the assistance of, in particular, 
Jordanians and probably some of the Syrian Kurds and probably 
the Turks.
    Senator Vitter. Going back to the overall ISIS number of 
31,000 or 35,000, what percentage of that would you guesstimate 
is in Syria?
    General Dempsey. About two-thirds.
    Senator Vitter. So, great majority in Syria.
    Okay, thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Vitter.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Secretary Hagel and General Dempsey, thank you for your 
service.
    I am pleased that the strategy that the administration has 
developed for defeating ISIS does include the training and 
equipping the moderate Syrian opposition. This is something 
that I've pushed for over a year, in part to prevent the power 
vacuum among the rebels that would allow a group like ISIS to 
gain strength. Air power alone, while important, does not win a 
conflict like this.
    Reports of nearly 40 nations agreeing to support the fight 
against ISIS are a promising signal. While ISIS presents a 
severe threat to our national security, it also threatens many 
countries around the world, especially those in the Middle 
East. The United States cannot bear this fight alone, and a 
strong coalition, including the neighboring Arab states, is 
obviously critical to destroying ISIS.
    Secretary Hagel, what is the administration's plan for 
going after the funding streams that are supporting ISIS? For 
example, it's been reported recently that anywhere between $1 
to $2 million a day is revenue that's coming in to ISIS from 
oilfields and refineries that they have taken over and that 
they now control. Moving this oil doesn't happen in a vacuum. 
Can you share if and how the United States is going after this 
funding stream and then any other funds that are available to 
ISIS?
    Secretary Hagel. Senator, as you recall in my testimony 
this morning, I mentioned specifically what the Treasury 
Department is doing to coordinate this effort to go after the 
funding sources of ISIL. You mentioned oil, black-marketing oil 
through porous borders. That's one of the obvious areas of 
funding. As you, I'm sure, know, ISIL has gotten control of 
small oilfields, and that's obviously where it starts. But, 
they are multisourced through kidnapping and ransom and as they 
have gone into towns and cities over the last few months and 
decimated those areas, and raided banks and taken possession of 
great numbers of equities.
    There is no one answer. It is a multinational effort that 
our Treasury Department is leading, along with our DOS. Be 
assured that it is a premium focus to cut off resources for 
ISIL. It's a premium focus for our strategy.
    Senator Hagan. I think that's very important, because it 
certainly would degrade their capability.
    I also think it's critical that the people of Syria have an 
alternative other than ISIS or other radical terrorist groups 
like it or the Assad regime. That's why I have been pushing the 
administration to empower and arm the moderate Syrian 
opposition. While a strong moderate military force is 
essential, I do believe success on the battlefield can only set 
the condition for the political solution in Syria.
    General Dempsey, you were just speaking about this, in 
particular, who will actually be the leader of this moderate 
Syrian opposition force. My question is, who is ultimately 
going to lead the force that the U.S. and our partner nations 
train-and-equip, both politically and military? What is your 
current assessment of these capabilities? Then, what are the 
plans to develop the leaders that would form the backbone of a 
longer-term government?
    General Dempsey. Thanks, Senator. We believe, one of the 
advantages of undertaking an overt--we call it ``Title 10''--
train-and-equip mission is, it's going to force that issue. 
It's going to force the Syrian Opposition Committee, the Syrian 
National Congress, to find some way to establish a responsible 
political architecture into which this military force can plug 
in a way that the other effort has never actually forced. The 
other effort, largely dealt with through intelligence channels, 
doesn't have the--kind of the forcing function that an overt 
program will have.
    I think the first step is to conduct an overt program. 
Second, as part of the program, I can assure you that we will 
not only be training riflemen, but also training leaders so 
that there is a military chain of command to whom these Syrian 
fighters are responsive. They're not responsive to General 
Dempsey or Captain Dempsey, they're going to be responsive to 
Syrians. Because, again, the effort, here, is to allow them to 
take ownership for this in a way that, heretofore, I don't 
think they've had the opportunity to do so.
    Senator Hagan. Thank you.
    News reports suggest that there could be many Westerners, 
even Americans, that might be fighting with ISIS. Needless to 
say, that's a serious concern, since it certainly has the 
potential to create more of a direct threat to the United 
States and our Western--European allies. Do you see the 
presence of radicalized Westerners fighting with ISIS and the 
Khorasan as a threat to the United States? If so, is there a 
part of our strategy that seeks to disrupt their ability to 
recruit new members from the west?
    General Dempsey.
    General Dempsey. Of course, I see it as a threat. The thing 
that sets ISIL apart is, in fact, its radical ideology. There's 
another question about whether they're an affiliate of al 
Qaeda. They have been al Qaeda. They were al Qaeda in Iraq. 
But, they became so radical that, actually, al Qaeda rejected 
them. I still consider them to be part of the al Qaeda 
ideology, but with a much more apocalyptic, if you will, world 
view.
    I don't think--it's not all 31,000, clearly. But, enough of 
them that, were they to be able to achieve it--and unless some 
of the governments in the region can find a way to address the 
social issues inside of their countries, then the seductive 
nature of that vision becomes actually the most dangerous part 
of it, which is why their momentum has to be reversed.
    Senator Hagan. Thank you.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Hagan. Thank you.
    Chairman Levin. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for the challenges that you're facing 
and the options you're presenting to Congress on this.
    General Dempsey, Congress is being asked to fund training 
for about 5,000 moderate Syrian rebels. If Congress would 
provide that funding immediately, how long do you think it 
would take before a program's going to be up and running? I 
realize there is a lot of variables involved in this. You need 
to find the folks that we're going to be training. You need to 
thoroughly vet them to make sure they are the fighters that we 
need and that we desire.
    Also, how do the moderates leave the field of battle? How 
are they going to defend that territory in Syria while they're 
being trained? How are they going to defend that against Assad? 
If you could address that, please.
    General Dempsey. To the first part of your question, 
Senator, we think 3 to 5 months to establish the program. Some 
of that is consumed by contracting for equipment. It's not as 
much maneuvering people into the right place. But, during that 
period of time, as well, we would have to, with the help of, in 
particular, some of our regional partners, recruit and vet. 
But, 3 to 5 months, and then deliver a capability sometime 
between 8 and 12 months. That's the timeframe that we're 
working toward.
    To your question about, ``Will they come to be trained?''--
in many cases, they've already been driven out of their homes 
and out of their villages by ISIL, or by the regime, in some 
cases, so we think we'll be recruiting mostly from displaced 
populations. Therefore, it won't be as though they're giving up 
the security of their families to come and train with us.
    Senator Fischer. Sir, I believe this is the first request 
from the administration, but it will not be the last. We're 
looking at 5,000 fighters now. We're looking at a growing force 
by ISIL that, as you've estimated, is 31,000. Over this period 
of months where we're going to be training--finding people, 
vetting, training them, that will only grow, in my opinion.
    As we look at this request, I believe it should be separate 
from the CR. I think it's very important that Congress have a 
full debate on it. I know you probably have nothing to say on 
how we do our business here, but I believe we need to be honest 
with the American people on what lies ahead. With the request 
as it is, we are not being honest with the American people.
    If we truly are going to defeat ISIL, to degrade them and 
to defeat them, it's not just this one request. Do you 
anticipate that the President will be sending more requests to 
Congress? If so, when may we expect to see those?
    I know you're anxious to answer.
    Secretary Hagel. I always like to respond to a fellow 
Nebraskan.
    The reason that I'm going to answer first is because this 
really puts the general in a more difficult position than he 
should be in. So, he may want to add something, but let me 
answer this way.
    First, because I do know a little something about your 
institution, if it was a perfect world and if we didn't have 
the time constraints that we all are under, and you weren't all 
scheduled to go out of session, here, in a couple of days, and 
the world was more perfect, I agree, this should have a 
thorough airing with the American people.
    Senator Fischer. If I can just interrupt you on that.
    Secretary Hagel. Yes.
    Senator Fischer. Just because we're scheduled to go out on 
Thursday, we don't have to go out on Thursday, do we, sir?
    Secretary Hagel. That's not a decision for me to make, nor 
a recommendation. That falls clearly on your side of the dais.
    But, that said, if we would not get the authority now, we 
would lose a considerable amount of time. I know it's 
imperfect. It was never meant to jam anyone or to put anybody 
in a tough spot. But, it is my opinion--I think the President's 
been pretty clear on this--that the time is of the essence, 
here. When Congress comes back--and obviously when you come 
back, I assume there will have been an election and start 
forming a new Congress--there will be a debate, there should be 
a debate about this.
    As to your questions, ``What further requests might be 
coming?'' Senator, right now the President has been as 
straightforward and honest with you, with the American people, 
as I have been. There's no hidden agenda, here, or we're 
waiting for another shoe to drop in a--on a request. No. I 
can't guarantee you, at all--I don't think you would want your 
Secretary of Defense to say, ``I'm sorry, there--this is the 
end. No more.'' I think General Dempsey's point in some of his 
answers this--here this morning, he certainly will recommend if 
he thinks we need some more capabilities somewhere.
    Senator Fischer. Right.
    Secretary Hagel. That's what you want.
    Senator Fischer. Right.
    Secretary Hagel. That's the way I would answer your 
question.
    Senator Fischer. I would say, as a fellow Nebraskan, that, 
when I traveled the State for 3 weeks in August, all across the 
State, for the first time I heard Nebraskans talk about foreign 
policy and ask questions about foreign policy. We didn't hear 
that in any campaign, any debates, any forums. But, people in 
Nebraska are focused on this, they know it's a concern. They 
are frightened, but they want this addressed in a way that we 
know the enemy is going to be defeated. They expect us to do 
our job. If that means staying here longer, then we need to do 
that.
    Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Fischer.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    I want to thank both of you all for your continued service 
to the great country.
    I agree with my Senator--my colleague, Senator Fischer--I 
agree wholeheartedly with her. We should stay here, and it 
should be separated. It's a big enough issue for us to have a 
policy discussion and not be tied into the funding discussion 
that we're going to have with the CR. But, with that being 
said, it is what it is.
    I have a hard time with all of this. My problem is--and I 
think I've spoke to both of you--when I go home to West 
Virginia, the same as Nebraska, the same as anywhere else in 
the country, people say, ``What do you expect to be different 
than what you've done in that region of the world for 13 years? 
If money or military might hasn't changed it, what makes you 
think you can change it now?'' When you start looking at what 
we've spent, almost $20 billion, trying to build up a 280,000-
person army in Iraq, and the first time they were tested, they 
turned tail and ran, turned over the arsenal that we equipped 
them with, now is being used against us. Anyone seeing the 
video of ISIS taking all that back into Syria--it is absolutely 
appalling for us to look at that. Then when you look at what we 
have done in that part of the world, a total of, in Iraq, $818 
billion has been spent, $747 in Afghanistan, and growing; $1.6 
trillion to date, and growing; 4,400 lives lost in Iraq, 36,000 
wounded; 2,200 lives in Afghanistan, and 21,000 wounded.
    I understand Syria. It's a sectarian conflict against the 
Assad regime. Everybody in there, whoever they may be, are 
fighting Assad, the way I understand it. If they're all 
fighting Assad, even though they might not be united--they all 
know they're trying to get rid of the Assad regime--we're 
supposed to carve out 5,000, 3,000, 5,000. At $100,000 per 
person, if my math is correct--$5 billion--or $500 million for 
5,000, correct? Okay. So, that's $100,000 per person that we're 
supposed to do. Only thing that I know that we're assured of 
is, that training and those weapons will probably be used 
against us at some time in the future if everything that's 
happened in the past--I have a hard time understanding why all 
of a sudden we're going to convince these 5,000 to turn and 
fight ISIS, who's fighting the same religious war that they're 
fighting against the Assad regime. Doesn't make any sense.
    I'm in total support of air support, of using our tactical 
and our technology, as we have, for superiority. I think it 
should be the Arab Muslim ground game, if you would. That 
should be theirs. If we can booster them up a little bit--and 
you said we had to go back in, then either we've done a poor 
job of training in the beginning or Maliki was able to undo 
everything we did in the first 2 years that we've been gone. If 
it's that quickly undone, how can I go home to West Virginia 
and make sense out of this at all?
    Anybody want to take a shot at this? It just doesn't make 
sense to me.
    Secretary Hagel. If you put it that way, Senator. 
[Laughter.]
    First, I understand, I think, a lot of the complications. 
We are dealing with the same issue. I don't minimize at all 
what you're saying as you try to explain this to the people you 
represent. Let me make a couple of points.
    First, it's not the United States alone that's going to 
change all this. This is the whole point of what the President 
talked about in his statement to the American public last week. 
We are going to help empower the people of Iraq. We are going 
to do everything we can to support their efforts with a new 
government, inclusive government. You mentioned the squandering 
of the last 5 years of the Maliki Government, which has brought 
a great deal of this on.
    Senator Manchin. But, you said that they're a sovereign 
nation, so we don't like the outcome, but they have a process.
    Secretary Hagel. They have a process.
    Senator Manchin. That can be changing. That can change 
continuously.
    Secretary Hagel. That's right. We're hopeful that this new 
government is going to put them back on a road of responsible, 
responsive, representative government. We are not going to have 
ground forces on the ground to do it for them. As you said, it 
should be the people of that region, of the country. As the 
chairman noted, the Peshmerga, Iraqi security forces have been 
able to get back on the offensive, with our assistance.
    Senator Manchin. But, those forces are able--and I'm so 
sorry, Mr. Secretary, I know how time runs here--those forces 
have been able, let's say, to maybe hold the ground a little 
bit in their own territories, but they're not going to be 
moving into Syria.
    Secretary Hagel. That's why we need a ground game in 
Syria----
    Senator Manchin. But, ISIS hasn't been----
    Secretary Hagel.--of the people there.
    Senator Manchin.--ISIS hasn't been able to--they've tried 
to take out Assad, correct? Is it fair to say that ISIS has 
tried to take out Assad?
    Secretary Hagel. ISIS has tried to take out everybody and--
--
    Senator Manchin. But, Assad. They have----
    Secretary Hagel.--everyone around it, but----
    Senator Manchin.--they failed----
    Secretary Hagel.--they're a threat to us. I think that's 
the main point that--Senator, that is important for you, but 
for all of us. ISIS is a--ISIL is a threat to the United 
States.
    Senator Manchin. But, Assad is not a threat to the United 
States.
    Secretary Hagel. It's not the same kind of threat. What 
he's allowed to happen in his own country is why we have a 
problem in Syria.
    Senator Manchin. I agree, it's--it's barbaric also.
    But, here's what I'm saying. I'm concerned about the United 
States of America. I'm concerned about West Virginia and all 49 
other States and everybody that lives in those States. I'm 
concerned about how we're keeping them, from here, to do harm 
to America or Americans are planning. I'm for all of that. 
Attack wherever may be. But, I'm just saying, our past 
performance for 13 years in that region hasn't given us the 
results. We took out Saddam. We thought that would change. 
Iraq's in worse shape. We've--take out Qaddafi. We thought that 
would change. It got so bad in Libya, we've had to pull out our 
own Embassy and our people in our Embassy. They're wanting to 
take out--these barbaric dictators are unbelievable, but it 
seems like that's what rules. If it's not one, it'll be 
another. We're taking out a person--are turning our efforts to 
ISIS, who were Assad. I'm not supporting, any way, shape, or 
form, Assad. I think he should be gone. But, as long as he's 
able to remain there, he's fighting the same people that we're 
asking the people to train to fight that we're going to spend 
$500 million. Makes no sense to me, and I can't sell it. I've 
tried, you can't sell this stuff. No one believes the outcome 
will be any different.
    General, do you have anything to add to that?
    General Dempsey. Yes, could I, Mr. Chairman?
    Chairman Levin. Of course.
    General Dempsey. This is important enough that I think we 
probably need to bleed over a little bit.
    If you look back, I've been in the job now 3 years. When 
you look back over the course of that time, I've been pretty 
clear that we have a generational problem, which is to say a 
20-year problem. If it was 3 years ago, okay, maybe it's a 17-
year problem in the Middle East as these strongmen have been 
overthrown. What appeared to be for a moment in time a bit of a 
fledgling democratic movement has been hijacked, and it's been 
hijacked by some extraordinarily dangerous people--dangerous 
not just to the region, but transregionally and globally, as 
well.
    One of the things you can count on the U.S. military to 
recommend is that to belabor the metaphor of ground game and 
other sports analogies--I'm always going to come to you and 
tell you what we need to play an away game. I don't want to 
play a home game.
    I will promise you this. Left unaddressed, the issues in 
the Middle East will affect probably our European allies far 
more than us initially. I believe they're awakening to that 
reality, by the way. There will be a period of unrest in the 
Middle East that initially will probably just be an economic 
challenge, but could ultimately actually threaten us directly 
here in the Homeland.
    So, we don't have a choice. If I could wall up the 
continental United States and somehow assure you that the 
people of West Virginia will remain safe, I would do it, 
Senator. But, we can't.
    We have three tools in the military arsenal. First, we can 
do things ourselves. We call direct action. Second, we can 
build partners. Third, we can enable others, like we're doing 
with the French in Mali.
    What we've tried to do over the past few years is do less 
ourselves, more with partners, and enable others. That's the 
right path. We should do less ourselves, enable partners, and 
build partners. But, if we fail to address all three, we're 
back to doing it all ourselves. What we're suggesting here is a 
strategy, where we can get others, not only to do some of the 
lifting, but maybe pay for it, as well.
    I think that's the message to the people of West Virginia. 
We have to be engaged, because we are antithetical. Most of 
ISIL's ideology is antithetical to our values. You just can't 
let them fester.
    Question is, do we do it ourselves or try to do it with 
others? We're trying to do it with others. I think it's the 
right path.
    Chairman Levin. Thank you very much, Senator Manchin.
    Senator Graham.
    Senator Graham. I think that's a good way to begin. I 
couldn't agree with you more. The goal is to destroy ISIL and 
all they represent. Is that correct?
    General Dempsey. It is.
    Senator Graham. Very briefly, describe what destroying ISIL 
would look like, General Dempsey.
    General Dempsey. Yes, I'm probably going to be a little 
more articulate about that in Iraq, because we have a partner 
and we have a credible ground force to enable.
    Defeating or destroying ISIL in Iraq will require the 
combined forces of ISF and Pesh to go offensive, to regain lost 
territory, while concurrently--and this is the important part--
the Government of Iraq fills in behind with inclusive policies 
addressing the complaints of the Kurds and----
    Senator Graham. Can't we just maybe speed up the----
    General Dempsey. Then we restore the border and then 
they're defeated.
    Senator Graham. No, I'm with you. You take all the 
territory they hold, you take Mosul and Fallujah away from 
them, you put an Iraqi military on the ground that will be 
loyal to the Iraqi people, not just to the Shi'as, you have an 
inclusive government in Baghdad, where the Sunni tribes will 
feel like they're better off playing politics in Baghdad than 
siding with ISIL. That's destroying their ability to regenerate 
in Iraq. Syria, we'll talk about in a minute. But, I want to 
continue the theme about why all this matters.
    Is there any doubt in your mind, each of you, that if ISIL 
had the capability to kill millions of Americans, they would do 
so?
    General Dempsey. There's no doubt in my mind. They'll kill 
anybody who doesn't conform to their narrow ideological bent.
    Secretary Hagel. I agree.
    Senator Graham. So, really, it's mankind against ISIL, it's 
just not us against ISIL or Sunni Arab states against ISIL. If 
you're a Christian in the region, they will kill you very 
quickly. Is that correct?
    General Dempsey. Unless you convert.
    Senator Graham. Okay. Now, I guess what I'm trying to 
persuade my colleagues, that these problems only get worse over 
time. But, are they limited to the Mideast? Are there radical 
Islamists that we should worry about in Africa?
    General Dempsey. Absolutely.
    Senator Graham. Does the authorization to use military 
force allow this administration to go in to attack al Qaeda in 
the Arab Peninsula in Yemen without a new authorization?
    General Dempsey. It does. Anything affiliated with al 
Qaeda.
    Senator Graham. Okay. I'm going to write you a letter and 
name the organization that we could not attack without a new 
AUMF. I just want to see how far this goes. I'm a very robust 
Article 2 guy, but I think this is a pretty robust reading of 
the current AUMF. But, I'm not going to stand in your way. We 
need to get this right.
    Now, areas of agreement. Training the Free Syrian Army, you 
recommend we do that, with all of the complications that go 
with it.
    General Dempsey. With a coalition, I do.
    Senator Graham. Okay. So, now let's get to Syria. To 
destroy ISIL if two-thirds of ISIL is in Syria, do you agree 
that somebody has to go in on the ground and dig them out 
eventually?
    General Dempsey. Somebody, yes, sir.
    Senator Graham. It's better for us to be part of that 
somebody than just to be the only ones doing it.
    General Dempsey. Absolutely.
    Senator Graham. Can you think of an Arab army that you 
could form in the next year that you would have confidence that 
could go in and destroy ISIL in Syria, hold the territory 
without substantial American support?
    General Dempsey. There are partners in the region who have 
very capable special operating forces, and I think the campaign 
would envision that they would participate. That would 
certainly be our ask of them to participate in a ground 
campaign.
    Senator Graham. My question is, can you envision a 
coalition of Arab states that have the capabilities to go into 
Syria, defeat ISIL, hold the territory without substantial U.S. 
military support?
    General Dempsey. As long as, Senator, you'll elaborate on 
what you mean by ``substantial U.S. military support.''
    Senator Graham. Getting them to the battlefield. How do 
they get there? What does it take to maintain a large army in 
the field? Do they have the intelligence capability if we don't 
help them? Do they have sufficient air power to win the day 
without our support? Do they have the special forces 
capabilities to go and kill the leaders of ISIL without us 
being on the ground?
    General Dempsey. I was with you until ``without us being on 
the ground.'' Because, as I mentioned in previous testimony, 
I----
    Senator Graham. It's easy. If you think they can do it 
without us being on the ground, just say yes.
    General Dempsey. Yes.
    Senator Graham. Okay. What if they lose?
    General Dempsey. Any campaign is built on assumptions. I 
just made one. If the assumption proves invalid, then you have 
to readjust your----
    Senator Graham. What are the consequences of an Arab army 
going into Syria virtually on their own and getting beat by 
ISIL, to us?
    General Dempsey. Yes, I wouldn't suggest virtually on your 
own. I think they'll be enabling support that we would have----
    Senator Graham. By us?
    General Dempsey. Yes, I do think, yes.
    Senator Graham. Okay. We're having a semantic problem here. 
But, the bottom line is, What does it mean to the world if we 
take on ISIL and they defeat the people we send in to take them 
all? That's a bad day for us, do you agree?
    General Dempsey. It's a bad day for the region. Yes, sir.
    Senator Graham. It's a bad day for the world, isn't it?
    General Dempsey. It is.
    Senator Graham. Do you agree with me this is probably our 
last best chance to put these guys in a box and keep them 
there?
    General Dempsey. I think it's our last best chance to 
convince regional governments that if they don't solve their 
internal problems, we can't do it for them, and they'd better 
get serious about it.
    Senator Graham. What if the following happens: The regional 
players say that, ``I don't trust the United States, because 
you've been so unreliable. You have drawn red lines and done 
nothing. You withdrew from Iraq and left the place in shambles, 
that I really don't want to follow your leadership, because I 
don't think you're capable of winning the war, because you 
don't have the resolve''? What if they tell us, ``We're not 
going to do anything other than maybe drop a few bombs''? Would 
you consider the recommendation to the President that allowing 
ISIL to maintain a safe haven in Syria and to grow in 
capability over time is a major threat to the United States? 
Could you envision yourself recommending to the President, if 
nobody else will help us, that we go in on the ground and clean 
these guys out in Syria? If we had to.
    General Dempsey. I haven't confronted that question yet, 
Senator, but I'll react to it. I don't think that, even if we 
were to go in on the ground, armored divisions with flags at 
furl----
    Senator Graham. The full weight of the military.
    General Dempsey. I don't think we would do anything more 
than push this problem further to the right. This has to be--to 
your point, if we don't get the kind of coalition I'm 
describing, then we're into a very narrow CT framework, in my 
view.
    Senator Graham. Okay. If I may just follow this point. So, 
our national defense, in terms of stopping ISIL from killing 
thousands or millions of Americans if they get the capability 
really comes down to whether or not we can convince the Arab 
world to go in there and defeat these guys?
    General Dempsey. It really comes down to building a 
coalition so that what the Arab Muslim world sees is them 
rejecting ISIS, not us defeating them.
    Senator Graham. They already reject ISIL. Do you know any 
major Arab ally that embraces ISIL?
    General Dempsey. I know major Arab allies who fund them.
    Senator Graham. Yes, but do they embrace--they fund them 
because the Free Syrian Army couldn't fight Assad. They were 
trying to beat Assad. I think they realize the folly of their 
ways.
    Don't taint the Mideast unfairly. Is it fair to say that 
most Syrians have two things in common: they don't like ISIL 
and they don't like Assad? Most Syrians.
    General Dempsey. I agree.
    Senator Graham. Is it fair to say that most Muslims reject 
what ISIL does in the name of their religion?
    General Dempsey. Yes.
    Senator Graham. Is it fair to say that if we don't contain 
this threat and eventually destroy it, that it gets worse over 
time and, a year from now, if they're still flourishing in 
Syria and this coalition hasn't come about, America is more in 
danger of a major attack than we are today?
    General Dempsey. Yes.
    Senator Graham. Thank you.
    Chairman Levin. Okay.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you, Secretary Hagel and General Dempsey, both for 
being here this morning and for your service.
    I would like to direct my question, first, in a different 
direction. I think the barbarism and the threat that ISIL poses 
really became real for people in this country, certainly for 
people in New Hampshire, with the brutal murders of James Foley 
and Steven Sotloff. As Senator Ayotte has said, Jim Foley is 
from New Hampshire, and Steven Sotloff went to school there, so 
we saw that very personally, in terms of what happened.
    I know that it has been reported that there was an effort 
to rescue the hostages who were being held by ISIL that was not 
successful. I certainly commend all of the courageous 
servicemembers who were part of that effort. There have been 
reports, in recent news stories, from the Foley family that 
really raise, I think, very troubling and serious questions 
about the support that our Government provided to the families 
and to the effort to free Jim Foley and Steven Sotloff and the 
other hostages who are currently being held who are American 
citizens. Is there more that our Government can and should be 
doing to support the families and to looking at how we can help 
free hostages when they're being held in this situation?
    Secretary Hagel. First, like all Americans, our thoughts 
and prayers go out to the families.
    As to your question, Senator, DOD does not have the direct 
responsibility on this.
    Senator Shaheen. Right. I understand that.
    Secretary Hagel. However, that said, thank you for your 
comments about the rescue mission. Because it's an open 
hearing, we don't want to say too much more about it, but it's 
been in the press.
    To your point about, ``Can we do better and do more and is 
there an effort to address some of the more human dimensions of 
this?''--I'm not going to prejudge any of our departments and 
agencies in how they handle it, but I think we all must be 
mindful of the humanity, here, involved if it was our children 
or any of us personally in this situation. I know our law 
enforcement people, those who have responsibility for dealing 
with this, it's a tough responsibility. They follow the law. I 
think we could and should maybe revisit some of these 
practices.
    Our national security policy directive is very clear on 
ransom. That's been in place for many years through different 
administrations. I'm not suggesting we change that, by the way.
    Senator Shaheen. I appreciate that.
    Secretary Hagel. I think that maybe there are some areas 
that we could do a little better with, as far as in dealing 
with families and the human part of this. Again, that's not 
meant as criticism for any of our agencies or departments, 
because I don't know all the facts on how it was handled.
    General Dempsey. Just because you mentioned the mission, 
itself. I've been at this a long time. That was the most 
complex, highest-risk mission we've ever undertaken. That 
should give the families some solace and you some confidence 
that, as a military, we are very focused on this. We have some 
limitations in our ability to collect intelligence inside of 
Syria. But, when we had the opportunity to do so, we tried to 
get them.
    Senator Shaheen. I appreciate that. I do hope, though, 
given what we've heard from the Foleys and from the other 
families, that there will be a reassessment of how our 
government supports families facing this kind of a crisis.
    Next, I want to go to the estimate of ISIL's troop 
strengthen, because it's been as you reported, 31,000 is the 
most recent estimate. How could it have grown to that size 
without our intelligence recognizing the threat? What is part 
of our plan to address the recruitment? There have been a lot 
of reports about how effective the messaging is that ISIL has 
been using to recruit young people, particularly westerners. 
How is that part of our plan? Why is our intelligence not 
picking up the extent to which this effort has been growing?
    General Dempsey. I can't speak for the Intelligence 
Community or the intelligence agencies. I'll tell you they're 
focused on it. The way they grow, though--I mentioned that 
ISIL's strategy is actually to consume tribes. They may be in a 
conflict with a tribe one day, and then overcome it the next, 
which might increase their numbers by 3,000, 4,000, 5,000. Once 
the tribal leader pledges allegiance, the entire thing shifts 
over.
    That's part of it, I think. They've also sprung a few 
thousand prisoners from different prisons inside of Iraq that 
were very hardened terrorists.
    They are growing. But, again, the numbers that are reported 
were estimated based on the free rein that, at the time, ISIL 
was having in Iraq. I think we're going to see some shift in 
that. That's part of our strategy, actually. The public 
diplomacy part of this, which is not a military line of effort, 
but it has to be part of our strategy. We have to point out to 
Arab and Muslim youth--and Western youth, for that matter--the 
risk posed by this ideology.
    Senator Shaheen. Thank you. My time is up, but I just want 
to close by saying I certainly intend to support the request 
for funding to train-and-equip vetted opposition groups in 
Syria. I do believe that it would be a mistake for us not, in 
Congress, to have a debate about a long-term, broader strategy 
to go after ISIL. I think it's very important for us to have a 
bipartisan, bicameral support for that effort and a debate here 
that the American people can be part of. I know that the 
chairman of the Senate Foreign Relations Committee is working 
on a specific authorization for use of military force, which I 
intend to work with him on. I certainly hope there will be an 
effort on the part of the administration to work with Congress 
on that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks, to both of you, for being here today and for all 
you do for our country and all you do to keep us safe. This is 
an exceptionally important issue as it relates to our national 
security.
    I think the President, last week, quite accurately 
portrayed the threats that we're facing from ISIS, that it's a 
threat to the Middle East with aspirations to attack global 
targets, including the United States. The President should, in 
my opinion, do everything he possibly can to protect Americans 
and to protect U.S. facilities in Iraq and Syria from ISIS and 
from other terrorist activity.
    I believe, however, like many of my colleagues on both 
sides of the aisle, that the President should seek 
congressional authorization for his expanded campaign to 
degrade and destroy ISIS. I also do not believe that we should 
authorize parts of this conflict through a CR. This is a 
serious and important discussion about our national security, 
and it should be debated and discussed and ultimately voted on 
within Congress, based on its own merits, and it shouldn't be 
lumped in with a much broader discussion about a lot of other 
things. I think we owe it to those who valiantly put their own 
lives on the line, to make sure that this is debated and 
discussed, and that the parameters are properly set in its own 
context.
    Secretary Hagel, I have a question for you as it relates to 
some of this discussion as it relates to some of the things 
that President Obama has said in recent weeks about ISIS. In an 
interview that I believe he had with Thomas Friedman at the New 
York Times, just barely a month ago, he stated that the notion 
of arming Syrian rebels has ``always been a fantasy. This idea 
that we could provide some light arms or even sophisticated 
arms to what was essentially an opposition made up of former 
doctors, farmers, pharmacists, and so forth, and that they were 
going to be able to be able to battle not only a well-armed 
state, but also a well-armed state backed by Russia, backed by 
Iran, a battle-hardened Hezbollah, that was never in the 
cards.''
    Now, the President, hardly a month later, is seeking 
authorization to do basically that. So, Mr. Secretary, what has 
changed? Why does the President, who apparently didn't think 
that would work, and described that as some sort of fantasy 
about a month ago. What has changed to make him think that it 
will work now?
    Secretary Hagel. Thank you, Senator. First, at the risk of 
interpreting what the President meant when he said that, I 
recognize that is always risky, as I have said. But, let me 
address your question this way.
    What's changed now is the urgency of what has occurred in 
the Middle East, specifically in Iraq and Syria, the murder of 
two Americans, now a third, a brutal murder of a British 
citizen, the different dimensions that we've seen, the last 5 
weeks especially, unfold, what ISIL has been able to achieve in 
a relatively short amount of time, the changing of a 
government, the leaving of one Iraqi Government with a new 
government coming in. Over about a 6-week period, Senator, 
there was, and were, a number of occurrences that came together 
that I do think presented a whole new picture of realities, of 
urgency, of dangers, of threats. Let me stop there and see if 
that helps you a little bit.
    I saw the interview, and I read the interview. But, again, 
at the risk of trying to interpret what he meant, I offer that.
    Senator Lee. I appreciate that. I do understand that there 
were some developments that have occurred since then that have 
brought this appropriately to our attention, to the attention 
of the world. I would be curious to know, though, 
strategically, how that changes something that he previously 
described as a kind of fantasy into something that could be 
realistic. But, I understand that that's difficult for you to 
answer in this context. I'd love to be able to talk more about 
that on another occasion if we can.
    Can you describe what the end objective in Syria is for the 
United States? In other words, do we still contend that Assad 
must go, that he cannot stay in power, and also, what the 
objective is as it relates to the moderate groups that the 
President would like to see lead this. What does the post-Assad 
Syria look like that we are after? Or is that our objective at 
all?
    Secretary Hagel. The issue on our position with Assad 
remains very clear. The President stated it, I said it in my 
testimony here this morning. The President has said, many 
times, still strongly believes, that Assad has lost the 
legitimacy to govern his own people. We have a country, Syria, 
in complete chaos and upheaval because of Assad. That's the 
individual responsible for creating what is occurring and has 
been occurring.
    Your question about the end state in Syria. I think what 
we, the administration, I think the American people, would want 
to see and--the Syrian people, as a free Syria, where men and 
women and their families have rights to choose and have rights 
to determine their own leaders and their own futures. I think 
that is really the essence of the ultimate objective we'd like 
to see in Syria.
    Senator Lee. Okay. I see my time is expired. Thank you, Mr. 
Secretary.
    Secretary Hagel. Senator, thank you.
    Chairman Levin. Thank you, Senator Lee.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you, to both Secretary Hagel and Chairman Dempsey, 
for again being with us and for your explanation and very 
forthright testimony here today and, in the past, both publicly 
and privately, to members of this committee and the Senate.
    I want to say to you, first, Secretary Hagel, how much I 
appreciate the decision that you made recently to change DOD 
policy on reviewing other-than-honorable discharges for 
veterans suffering, at the time of their discharge, from post-
traumatic stress, and most especially, my thanks to you on 
behalf of the 80,000 Vietnam-era veterans who will benefit by 
that policy change to give them liberal consideration as they 
apply to the discharge review boards. These veterans who 
suffered, at the time of their discharge, from post-traumatic 
stress often received less-than-honorable discharges because of 
the injuries that they suffered in combat, at war. They've 
lived with the stigma and the blackmark on their records for 
decades, many of them became homeless and jobless as a result. 
I want to thank you for committing to me, when we first met, 
that you would do the right thing, and then, in fact, doing the 
right thing. I really appreciate your policy change in that 
regard.
     I want to, perhaps unfairly, quote to you something that 
you said on the floor of the Senate in 2002, in October, at the 
time that the Senate voted in favor, and you voted in favor, of 
Senate Joint Resolution 45, which was the resolution that 
authorized the use of force in Iraq. You said, ``In authorizing 
the use of force against Iraq, we are at the beginning of a 
road that has no clear end.'' You went on to say, ``While I 
cannot predict the future, I believe that what we decide in 
this chamber this week will influence America's security and 
role in the world for the coming decades. It will serve as the 
framework, both intentionally and unintentionally, for the 
future''--and then you said, quite wisely, in my view, as it 
turns out--``for an intensification of engagement with Iraq in 
the Middle East, a world which we know very little and whose 
destiny will now be directly tied to ours.''
    We've lived with the framework that came from that vote. 
We've suffered, as Americans, greatly in both the loss of 
people and the sacrifice of treasure, money. That is the reason 
why Americans now feel so conflicted, often ambivalent, about 
the brutality of the action that we've witnessed--the 
beheading, shockingly, repulsively, of these two brave 
individuals--and yet, the war weariness that many Americans 
feel at this point.
    General Dempsey mentioned earlier the quote from Thomas 
Friedman, that nobody ever washed a used car. But, a lot of 
people have rented unwashed cars. It seems to me we are, in 
effect, renting an unwashed car, insofar as we want to make 
sure that it's serviceable and it works, but do not want to go 
into a situation where there's no clearly defined exit 
strategy.
    Can you tell us what the threat is to the United States 
that we will eliminate by degrading and defeating ISIL?
    Secretary Hagel. That's always the problem of giving a 
speech on the floor of the Senate, that it is on the record. 
[Laughter.]
    Let me just comment on that, because it is going to reflect 
on my answer to your question.
    I put a lot of time into thinking about that speech, 
Senator, and I recall writing it. The part of it that you read 
back, I do not disassociate myself from at all. For those words 
that you read back, I'm even more mindful, as Secretary of 
Defense, of my responsibilities. Doesn't mean I'm right, but 
I'm even more mindful than I might otherwise be of what I saw 
occur, starting in 2001-2002, and I was part of. That's first.
    Second, to the real question, what is the threat, and how 
will it change? I think we are in a different situation today, 
in what the President has laid out to the American people as to 
what his objectives are, versus where we were in 2002. Main 
reason is that ISIL is a very clear threat to the United States 
of America, to our people. You mentioned the two brutal murders 
of two Americans. That's not just a threat, that's an action 
that was taken.
    There are a number of other examples. To our allies. I 
thought General Dempsey's commentary to answer a difficult 
question that Senator Manchin posed, was full of a lot of 
thoughtful and wise thinking on where this is all going to go 
if we don't do what we should do and need to do now. I think 
that's different from where we were in 2002.
    Now, because I do think ISIL is a threat, and a very clear 
threat, to the United States, to our interests, to our people, 
to our allies--and we could spend a lot more time this morning 
going through that case and making that case--I think what the 
President's laid out, what I strongly support, is the right 
thing to do, because it is in the interest, clearly, of our 
country.
    One last point on this. What General Dempsey said about 
``If we don't do something now''--and I think the way the 
President has framed that ``something,'' how we're going to do 
it--we can't do it alone. I think it's been clear in a lot of 
the testimony this morning, in the questions, that this 
country, the United States of America, as much as we have 
engaged, as much as we have bled, the treasure and the lives 
that we have left behind, we still haven't fixed the problem. 
We can't fix the problem alone. That's why all the dimensions 
of what the President's talking about, to me, make sense. I 
think if we can do what we intend to do and what we believe we 
can do, bringing all these groups together, the very people who 
are most at risk, then we can be successful at averting this 
great threat to this country. That's what's different. That's 
what I think the threat is.
    Chairman Levin. Thank you.
    Senator Blumenthal. Thank you.
    Chairman Levin. Thank you, Senator Blumenthal.
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. Thank you for 
your service, especially during these challenging times.
    Mr. Secretary, I want to start with you. If ISIS is able to 
consolidate power and to create and dominate a nation-state and 
to retain access to, potentially, billions of dollars in oil 
revenue, over time what is the specific danger to America if 
they are able to use that nation-state to project jihad here?
    Secretary Hagel. Senator, as you have expressed it and 
asked the question, over time if ISIL is not stopped, and with 
the economic power that it has now, then what I would foresee 
happening, not only an immediate threat to United States 
citizens and our people, our interests, but I think you could 
very well find Jordan go down as the country that we know it 
today. I think Saudi Arabia could well be beyond just 
threatened, their oilfields. I think the expansion of where 
this could go in the Middle East, dominating oil production. 
Lebanon is also in a very tentative state. Libya is in chaos. 
Everywhere you look in the Middle East, there is trouble. If a 
force like ISIL, in my opinion, is allowed to continue with its 
ideology, with its resources, with its capability, then, as 
General Dempsey said, there's no doubt, it will impact this 
country and the world economy. Now, this is down the road, if 
this is not stopped. But, I think that's what we're looking at 
here, Senator. It's an immediate threat to our interests, as 
well.
    Senator Cruz. General Dempsey, worst-case scenario, if ISIS 
were allowed to consolidate power, in your judgment what would 
be the worst-case specific risk to the Homeland and to the 
lives of American citizens?
    General Dempsey. Yes, Senator. The combination of radical 
ideology plus a youth bulge--the entire region is suffering a 
youth bulge--inequitable distribution of resources and a state 
of Islamic radicalization would, first of all, almost surely 
trigger a confrontation with Iran into which the rest of the 
world would be drawn, for obvious reason, but also provides 
them with this combination of resources plus radical ideology 
that we actually haven't seen. Most of the radical ideologies 
are resource-starved, or at least resource-limited. A resource-
rich radical ideology must become a threat. It's just 
inconceivable that it wouldn't be.
    Senator Cruz. Do you believe, if they were able to 
consolidate that power, that there would be a risk of their 
attempting, and perhaps even succeeding, with a terrorist 
attack of the magnitude of that that occurred on September 11, 
2001, or potentially an even greater terrorist attack?
    General Dempsey. I'd phrase it this way. Given what they've 
already demonstrated, in terms of brutality and utter disregard 
for human life, other than that which adheres to their 
ideology, whatever weapon system they would have in their 
possession, there's no doubt in my mind they'd use it, to 
include weapons of mass destruction.
    Senator Cruz. It's been reported that upwards of 100 
Americans are fighting alongside ISIS, have affiliated 
themselves with ISIS. How would you assess the risk of 
Americans with U.S. passports coming back to the United States 
to carry out acts of terror here?
    General Dempsey. Yes, we've actually been in close contact 
with both the intelligence communities and law enforcement. The 
risk will increase unless their momentum is reversed and unless 
their dominance of the media space--they are actually quite 
capable in social media and other forms of messaging. So, 
unless their momentum is blunted, which will begin to strip 
away this myth that they've surrounded themselves with, and 
unless we counter them in the media space, then the risk of 
radicalization through things like the Internet will continue 
to rise.
    Senator Cruz. But, you would characterize the risks of 
Americans coming back from ISIS with U.S. passports as 
significant? Is that fair?
    General Dempsey. I do. That view is shared by our European 
allies, as well.
    Senator Cruz. If the objective were to destroy ISIS--not to 
just degrade them, but to destroy them within 90 days, what 
would be required militarily to carry that out?
    General Dempsey. It's not possible, Senator, because 
militarily, we could confront them, we could destroy a lot of 
equipment, we could drive them underground, if you will. But, 
as I said, they will only be defeated or destroyed once they're 
rejected by the populations in which they hide. Truly, there is 
no military solution to ISIL.
    Senator Cruz. What would be required to kill those who are 
taking up arms right now?
    General Dempsey. Actually, I think that's the path we're 
on, which is to say using our unique capabilities, our 
counterterror capabilities, our ISR capabilities, our air 
capabilities, while working on the rest of the equation, which 
is this coalition of willing allied partners, or willing Arab 
partners. It may be a tough pill to swallow, but there is no 
military solution. It has to be part of a broader whole-of-
government regional campaign.
    Senator Cruz. One final question, Secretary Hagel. The 
President, as I understand it, has laid out what could be an 
extended military operation that could extend many months, or 
even years. In my view, carrying out such an operation, not 
responding to immediate exigency, requires congressional 
authorization. I think Congress would be prepared to grant that 
authorization if a specific case were made with clear 
objectives. What is your position as to the legal authority of 
the administration to carry out an extended military campaign 
for years, potentially, absent congressional authorization?
    Secretary Hagel. I believe the President has the statutory 
and constitutional authority to take the action that he is 
doing to protect this country as he laid it out to the American 
people last week.
    Senator Cruz. What is the legal authority that you're 
basing that on?
    Secretary Hagel. The statutory authority is the AUMF of 
2001, and if you wanted to add something to that, it would 
probably be the AUMF of 2002.
    Senator Cruz. My time is expired.
    Chairman Levin. Thank you.
    I assume that you meant there's no purely military solution 
to ISIL. When you said there's no military--because you're 
seeking----
    General Dempsey. Yes, there's no purely military solution.
    Chairman Levin. Thank you.
    General Dempsey. Right.
    Chairman Levin. Thank you.
    Now, we're going to need to stick very carefully to the 6-
minute rule, because we have--one, two, three, four, five, at 
least. We have to be out of here at exactly 1 p.m., so please, 
watch that clock, everybody.
    Senator Donnelly. I'm not your problem. [Laughter.]
    Chairman Levin. Senator Donnelly. I didn't mean to----
    Senator Donnelly. No, no, I know that. I know that, Mr. 
Chairman. Thank you.
    I want to thank both of you for everything you've done and 
for your service to our country.
    I want to get back to what you were talking about as to 
having to have partners and to have buy-in. I've heard the role 
that General Allen is going to play. Is a big part of that 
role, in your minds, working with the Sunni tribal leadership, 
the people they've worked with before, to try to get them to 
get back to a place almost that they were before, which is 
working together with us and, in effect, almost a second 
Awakening?
    General Dempsey. Yes, that's one of the reasons General 
Allen was such an attractive figure for that role. General 
Lloyd Austin, the Commander of CENTCOM, was in Iraq, as well, 
and he has incredible regional relationships, though this 
coalition will be beyond the region. We're looking for European 
partners, and maybe even nontraditional partners. But, General 
Allen is certainly going to focus on the tribes.
    Senator Donnelly. General Austin has done a tremendous job, 
but it doesn't hurt to have someone else in the lineup to help 
him with it, I would think. When we look at this, what are the 
kinds of things that General Allen can do, in effect, to start 
to get the tribes to look at this differently, to say, ``Look, 
our interests are more aligned with this coalition that's being 
put together than with this group, ISIS''?
    General Dempsey. At the national level, I think he will, 
along with our diplomats, encourage the new Iraqi Government to 
answer some of the grievances that both the Sunnis and the 
Kurds have had for years, actually, since 2004. I think there's 
some indication that there's reason to believe that that could 
occur.
    The Sunni tribes in al-Anbar aspire to form a national 
guard for some time. I think that's one of the capabilities 
that might actually contribute significantly to that outcome. 
The Maliki Government was actually, as you might expect them to 
be, very much against the idea of a national guard in al-Anbar, 
believing they were already dealing with a national guard of 
sorts in the Peshmerga in Kurdistan. I think this government 
may be more open to it, and I think that'll be one of the lines 
of effort.
    Senator Donnelly. Is this something that we can get done in 
Iraq if we don't get buy-in from the Sunnis?
    General Dempsey. As I said in an earlier question, Senator, 
every campaign plan makes assumptions, and then, if those 
assumptions are valid, you stay on path; if the assumption is 
rendered invalid, you deviate. One of the really important 
assumptions of this campaign is that we can, in fact, separate 
the moderate Sunni tribes from the ISIL ideology. If that 
proves untrue, we have to go back to the drawing board.
    Senator Donnelly. Okay. You had talked before about taking 
back Mosul, and the effort to do that. It would involve ISF, in 
that we're working with the best parts of ISF, or trying to. I 
guess this touches back again on that same subject, which is 
getting the Sunnis to accept those parts of ISF. Is that part 
of what General Allen is going to do, and what General Austin 
is working on?
    General Dempsey. Absolutely, yes, sir.
    Senator Donnelly. Okay. This is, again, for either of you. 
There are reports that you mentioned, financially, about ISIS 
getting income of $3 to $5 million per day, is what we've 
heard, that they are the best-financed terrorist group. So many 
of them have tried to put shoelaces and chewing gum together. 
That's not the case here. What is the plan, or what are we 
working on, to try to cut off their financing? Because the oil 
they're selling has to be going somewhere, and someone has to 
be paying them. So, how are we going to do that?
    Secretary Hagel. Senator, I mentioned this in two previous 
answers here.
    Senator Donnelly. I apologize, I wasn't here for that.
    Secretary Hagel. But, it's an important question. I also 
noted it in my testimony, that the administration has put 
together a focus, working with our Treasury Department as the 
key interagency department, with all other allies and partners 
around the world. You mentioned oil, the black marketing of oil 
has been, recently, a very significant resource for them.
    Senator Donnelly. Right.
    Secretary Hagel. They have taken small oilfields in Syria 
and Iraq. That's something that we can address through what 
we're looking at on some of our strategic focus outside of the 
Treasury Department. The ransom, the terrorism, all of the ways 
they finance themselves, we have a task force, working through 
the Treasury Department, to focus on this. But, that has to be, 
and is, a major part of our overall strategy, to cut off that 
funding and flow of resources.
    Senator Donnelly. The last thing I'll ask is about 
coordination with our European allies in regards to the people 
with European passports who can get visa waivers and other 
things, the efforts that are going into that. Is that being 
done with all of our European allies over there?
    Secretary Hagel. That, too, is a major part of the 
coordination, not only with our allies, but it is part of the 
overall strategic focus of our interagency departments, and we 
are working on all that. That's law enforcement, that's DOS, 
it's all the other agencies coming together to focus on it. We 
took it up, by the way, at Wales, at the NATO Summit, 2 weeks 
ago, when we were together, as we will continue to do. But, 
it's a very significant part of the overall strategy.
    Senator Donnelly. Thank you both.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Donnelly.
    Senator Sessions.
    Senator Sessions. Thank you, gentlemen, both for your 
service. We're dealing with some difficult times.
    But, General Dempsey, you served in combat in Iraq, you 
were in charge of training the Iraqi troops. How many years ago 
was that?
    General Dempsey. 2005 to 2007, sir.
    Senator Sessions. That's several years we've been training 
the Iraqi troops. Will they fight?
    General Dempsey. Yes, they will fight, if they are well led 
and believe that their government is looking out for, not only 
their best interests, but their families.
    Senator Sessions. Will they be encouraged if they felt they 
had U.S. air support?
    General Dempsey. Absolutely.
    Senator Sessions. I believe you said earlier that our first 
priority should be ISIL. Is that correct?
    General Dempsey. I did, Senator.
    Senator Sessions. I agree with that. There's no doubt about 
that in my mind. Don't we have a commitment, to the Kurds, the 
Shia, the Sunnis, that we worked with for 10 years in war and 
helped them establish, at least for a time, a government that 
functioned in Iraq? Don't we have, as a nation, some sort of 
relationship, a bond between our two nations, even though we've 
had difficulties in recent years?
    General Dempsey. I can tell you that those who have served 
there obviously feel that bond.
    Senator Sessions. I certainly hear that from people who 
have served there. I think we owe those who have served and who 
have suffered to be successful, if we can be successful. I 
think we can be successful.
    We've had a lot of questions about Syria. There are many 
complications in Syria. But, if we're going to make ISIL the 
first priority, shouldn't we emphasize our relationship with 
our friends, the Kurds, in Baghdad, and the Iraqis, and begin 
to work with them to turn the tide? In terms of strategy, where 
you begin, wouldn't the first place to be to put ISIL on the 
defensive in our ally, Iraq?
    General Dempsey. Yes.
    Senator Sessions. I want your military opinion, but if we 
embedded a number of Special Forces with the Iraqi military, 
and they knew that they had access to intelligence from the 
United States and air support from the United States, wouldn't 
that encourage them to be more effective, militarily?
    General Dempsey. As I mentioned in my opening statement, 
there may be times when I believe that would be necessary in 
order to make the mission successful. I don't think so on a 
day-to-day basis.
    Senator Sessions. Let me just ask you directly. If there's 
a military unit in Iraq today, an Iraqi unit, and they had 
United States military embedded with them, and they were asked 
to undertake an offensive operation, would they not be more 
emboldened and encouraged to know that they had Americans there 
with them?
    General Dempsey. In those cases where I would assess the 
mission to be complex enough that it would absolutely require 
our expertise forward, I'll make a recommendation to do it. We 
also don't want them to become dependent upon us. There's a 
fine line to be drawn there.
    Senator Sessions. They've become a bit dependent on U.S. 
air, I acknowledge. I do believe you're correct, that they will 
fight. But, I don't think they will have the kind of morale 
boost that we'd like them to have if they don't have confidence 
that they have air support, and that is enhanced with embedded 
soldiers. Surely, that's true, is it not?
    General Dempsey. I would love to find an occasion where we 
might have Jordanian Special Forces embedded, and Emirati 
Special Forces embedded.
    Senator Sessions. If we all had horses, we'd take a ride. 
We don't have that.
    General Dempsey. Yes, sir.
    Senator Sessions. We're talking about down the road. You 
said several times, we need to blunt the momentum, we need to 
change the momentum on the battlefield. Don't we need to start 
taking back a territory in Iraq--those of us who share that 
view----
    General Dempsey. Yes, absolutely, Senator.
    Senator Sessions.--and can't we get----
    General Dempsey. But, your premise is that we have to have 
U.S. embedded advisors forward. I don't share that premise, at 
this point.
    Senator Sessions. Did we use embedded people when they took 
the Haditha Dam back?
    General Dempsey. We did not.
    Senator Sessions. How did we assist them in that instance?
    General Dempsey. We have advisors embedded in headquarters 
that can help direct, using overhead imagery, full-motion 
video, and direct strikes.
    Senator Sessions. Would it be in our advantage to, sooner 
rather than later, encourage the Iraqis to get on the move?
    General Dempsey. Absolutely. But, we want to make sure 
they're ready, as well.
    Senator Sessions. You started training them in 2007, and 
it's been a number of months now, and we've had only--I just 
think we're in a position to start taking some advances. I 
think it's necessary to blunt the momentum.
    Secretary Hagel, briefly, I notice that the House put in 
their CR, $91 billion for the OCO funding. The President had 
asked for $58 billion. Is that money going to be used to--in 
addition to the $550 million for training and equipping the 
Free Syrian Army? Is that going to be used to carry out 
military operations in the region?
    Secretary Hagel. I haven't seen what the House did, and I 
think our Comptroller may be here. If I might take a second to 
ask Michael McCord, who you all know, Mr. Chairman----
    Chairman Levin. Have to make it real quick, because we have 
four more----
    Secretary Hagel. Okay, because I haven't seen what the 
House did. I don't want to say or respond to that until I know.
    Senator Sessions. Could you respond in writing on what your 
position is with regard to this?
    Secretary Hagel. We can do it for the record.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you.
    Secretary Hagel. I'll provide it for the record.
    Chairman Levin. If we could get that this afternoon. 
Because, obviously, it's important what the administration's 
position is.
    Secretary Hagel. We will.
    [The information referred to follows:]

    Yes, the President's $58.6 billion fiscal year 2015 Overseas 
Contingency Operations (OCO) request will be used primarily to support 
the continued military operations in Afghanistan operations. The 
request also includes a new initiative, the $4 billion Counterterrorism 
Partnerships Fund (CTPF), which builds on existing tools and 
authorities to respond to a range of terrorist threats and crisis 
response scenarios and to support the Syrian opposition. The CTPF will 
have three broad purposes:

    (1)  $1.0 billion to provide support to Syria and its neighbors 
through a Regional Stabilization Initiative to provide assistance to 
the Syrian opposition. The request includes a proposed authority to 
train-and-equip vetted elements of the Syrian armed opposition to help 
defend the Syrian people, stabilize areas under opposition control and 
facilitate the provision of essential services, counter terrorist 
threats, and promote conditions for a negotiated settlement. 
Additionally the funds are to be used to provide greater support to 
Syria's neighbors--Iraq, Lebanon, Jordan, and Turkey--as we work 
together to confront the growing challenges presented by the Islamic 
State of Iraq and the Levant, al-Nusrah Front, and other violent 
extremist groups.
    (2)  $2.5 billion to provide counterterrorism support to partner 
nations, including capacity-building and enabling support, a two-track 
framework for allocating CTPF dollars for specific mitigating efforts: 
expanding our efforts to provide direct support to partners in those 
countries and regions where terrorist threats pose the greatest 
challenge to U.S., allied, and partner security interests; and 
augmenting U.S. military capabilities needed to sustain a higher-level 
of partnership activity globally and enabling partners to perform their 
own security operations.
    (3)  $0.5 billion to help the Department of Defense (DOD) respond 
to unexpected crises. The volatile situation in Iraq is just one 
situation that underscores the importance of reserving funds that can 
be allocated based on unforeseen needs. A crisis response fund would 
facilitate flexibility and speed in responding to this or other 
contingencies (after appropriate congressional notification), and would 
allow DOD to maintain balance between responding to emergency 
requirements and being ready to respond to future contingencies.

    Chairman Levin. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, to both of you for your service.
    You and the President have made a very strong case that 
ISIL, if left unchecked, will be a threat to Europe and to the 
United States. They are attracting recruits from all over the 
world, including the United States.
    General Dempsey, you noted that, as we were looking at that 
map, what looks like territorial gains by ISIL is really a 
tribal-by-tribal overcoming. My question to you, General 
Dempsey, is, even as we are asked to provide the authorization 
to arm and equip the Free Syrian Army, how important is it that 
we work with the Sunni tribal leaders to enable them to fight 
off ISIL in both Syria and Iraq?
    General Dempsey. It's absolutely an integral part of the 
campaign plan.
    Senator Hirono. What exactly are we doing working with the 
Sunni tribal leaders to enable them to fend off ISIL?
    General Dempsey. This probably requires the integration of 
several things. I mentioned, already, the fact that the Iraqi 
Government has to demonstrate that it actually cares about the 
Sunni tribes and not to just fence them off in al-Anbar 
Province. That's one line of effort. The other is the effort of 
General Allen, as he goes forward using some of his previous 
relationships to meet with the tribal leaders and begin the 
formation of a national guard for al-Anbar Province. Then, I 
think it'll be a matter of regional partners who have Sunni 
Government providing some of the--maybe most, actually--of the 
funding and materiel support to that organization.
    Senator Hirono. Do you see evidence that this kind of 
effort is working, that these tribal leaders that have been 
marginalized or excluded are now going to trust what we're 
doing?
    General Dempsey. I can't make that report yet, Senator. 
What I will tell you is that, while ISIL was making these 
broad, sweeping movements across Iraq, many of the Sunni tribes 
completely got discouraged and they didn't feel like they had 
any reason or capability to stand up to ISIL.
    Now that ISIL momentum has been slowed, it hasn't been 
stopped and it hasn't been reversed, but it's been slowed--and 
we did see, today, actually, an ISF unit moving south of 
Baghdad, near Jurf al-Sakhar, for the first movement south of 
Baghdad. Now all of a sudden we're getting tribal leaders 
reaching out, saying, ``Okay, if you're going to be serious 
about this, then we'll talk to you.''
    I think it was a necessary first step that we showed them 
we really were serious.
    Senator Hirono. There were some earlier questions about 
concerns being raised about the Free Syrian Army that has been 
fighting Assad. What makes us believe that, when we train-and-
equip them, that they will turn their attention to fighting 
ISIL? Do we have some kind of an agreement with the 5,000 
forces--Syrian army forces that we are going to vet and train 
that--do we have some kind of an agreement that says, ``You 
will fight ISIL and you're not going to be fighting Assad''?
    General Dempsey. No. We do not have any agreements at all, 
because we haven't begun the recruiting effort. We don't have 
the authority to begin, so we haven't really done anything but 
come up with a concept.
    Senator Hirono. Let's say that you do get the authority. 
Then what kind of terms would you put forth to enable us, as 
much as possible--we realize there are risks, here--to have us 
conclude that the people we are recruiting are actually going 
to fight ISIL and not Assad?
    General Dempsey. The important part of an overt program is, 
we'll link it to a political structure over which we will have 
a certain amount of influence because of their dependence upon 
us for supplies, ammunition, and so forth--as well as the fact 
that the regional partners, in particular, I think, as long as 
they're--if the regional partners believe we're just going to 
ignore Assad and just leave him there in perpetuity, then we're 
going to have a problem with building a coalition. But, we can, 
it seems to me, coalesce around the idea that ISIL is the 
immediate threat and, therefore, should be addressed first.
    Senator Hirono. Of course, there is the question of, what 
is Assad going to be doing while the Free Syrian Army is busy 
attacking ISIL? There are a lot of complexities involving 
Syria.
    General Dempsey. There are.
    Senator Hirono. Secretary Hagel, we know that ISIL is 
attracting recruits from all over the world, including from the 
United States. I note, in your testimony, that you said that 
the Department of Justice and Department of Homeland Security 
have launched an initiative to partner with local communities 
to counter extremist recruiting. Can you talk a little bit more 
about what this constitutes, what this initiative is all about?
    Secretary Hagel. First, thank you for pointing that out, 
because as I noted in one of my earlier answers, it's a very 
important component of the overall strategy here to deal with 
ISIL. Since I'm not involved in that part of the strategy and 
the operations, I can't go too deep into how they're doing it, 
exactly. The point being is to enlist local communities' law 
enforcement awareness of who's in their communities, who's 
coming in and out of their communities, just be more alert of 
things that are out there that will help our Homeland Security 
people, our law enforcement individuals be more aware of things 
that may be occurring, shouldn't occur, and then also working 
with our international partners as we trade information on 
individuals who are flowing in and out of these countries. We 
know, as you have mentioned, and I think Marty mentioned and I 
mentioned, that there are thousands of Europeans that we know 
are in Syria and the Middle East, and these people all have 
passports which allow them access to our country, to different 
countries in the world. It's a combination of using those 
sources and coordinating that effort.
    Chairman Levin. Thank you, Senator Hirono.
    Senator Hirono. Thank you.
    Chairman Levin. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you, to the witnesses, for your helpful testimony 
today.
    I believe the President's four-pillar plan, announced last 
Wednesday night, is generally reasonable, but I have one 
significant point of disagreement that I want to spend some 
time on, and that is the question of whether the President has 
the authority, without additional congressional authorization, 
to carry out the mission, as described.
    Secretary Hagel, you have used the phrase ``war against 
ISIL'' today, and others in the administration have used that 
phrase. General Dempsey, you have talked about a multiyear 
effort, and others in the administration have expressed the 
same concern. I believe very strongly, and I don't think that 
it's just a theoretical or law-professor argument, that the 
President does need the authority of Congress to conduct the 
mission that he described and you've discussed today.
    In a matter like this, the President's power is basically 
composed of two kinds of powers--and you've alluded to them--
constitutional or statutory. The constitutional power is under 
Article 2, as powers Commander in Chief. While there's some 
gray area that's been debated often since 1787, the general 
understanding of the power of a Commander in Chief under 
Article 2 is to defend the Nation. An offensive military action 
then triggers the need to go into Article 1 and have Congress 
declare war. That was first tested by a Virginia President, 
Thomas Jefferson, when fighting a terrorist organization of his 
day in the same general region, the Barbary pirates. He had the 
authority, and believed he did, to repel attacks, one after the 
next. But, when he decided he needed to go on offense, ``Let's 
wipe out this threat so we don't have to just keep repelling 
attacks,'' he stated plainly that, ``I can't do that. I can't 
go on offense without Congress.''
    Senator Obama made the same point very clearly in 2007, 
``The President does not have power under the Constitution to 
unilaterally authorize a military attack in a situation that 
does not involve stopping an actual ongoing or imminent threat 
against the Nation.'' Within the last 2 weeks, the Director of 
National Counterterrorism Center, Matthew Olson, said, ``At 
this point, there is no credible information that ISIL is 
planning to attack the United States.'' I understood the 
President's comments last week, and other comments, to suggest 
that ISIL is a significant threat, a serious threat, a growing 
threat, but, in terms of an imminent threat to attack the 
United States that would trigger the Article 2 defense powers, 
it does not seem to exist at this point.
    Then there are statutory powers. The White House has cited 
both the 2001 and 2002 AUMFs. 2001 AUMF, it's important to 
remember not only what Congress authorized, but what Congress 
refused to authorize. The Bush administration approached 
Congress and said, ``We would like the power to undertake 
military action against terrorist groups in order to prevent 
terrorist attacks on the United States.'' If Congress had 
granted that AUMF, it clearly would have covered this threat. 
But, Congress overwhelmingly rejected that wording of the AUMF, 
did not believe in a preemptive war doctrine, did not want to 
hand the power to an executive to unilaterally determine who to 
go after. Instead, Congress narrowed the AUMF to have it be 
with respect to the perpetrators of the attacks of September 
11. ISIL was formed after September 11. There's been an 
administrative gloss by both administrations, the Bush and 
Obama administrations, to go beyond the perpetrators of 
September 11 to talk about associated forces with al Qaeda. Has 
there been a time which ISIL has been associated with al Qaeda? 
There was a time. But, they are not associated now. They've 
disclaimed each other. They're even battling in some theaters.
    Could a lawyer make a broad argument, a really creative 
argument that the AUMF covered ISIL? I suppose. I'm a lawyer, 
I've made creative arguments. But, this President spoke at the 
National Defense University in May 2013, and he argued against 
broadening the open-ended AUMF and said, instead, what we 
should be doing as a Nation, and what he was committed to, was 
not broadening the open-ended AUMF, but trying to refine it, 
narrow it, and ultimately repeal it. I don't know why we would 
take an open-ended AUMF and try to broaden it further when the 
President has made a commitment that it should be narrowed and 
refined.
    Finally, there was the AUMF with respect to Iraq that was 
passed in 2002. It was designed to topple a government that is 
long gone. There have been many successive governments since 
the Hussein Government was toppled. The administration 
testified, in a Senate Foreign Relations Committee hearing in 
May, that the 2002 AUMF was obsolete and should be repealed. 
Again, to try to take these two statutory elements and stretch 
them so broadly, I think, is a significant problem, and it will 
create a precedent that, if we go along with it in Congress, we 
will live to regret, and possibly regret very soon.
    That said, I think the mission, as described, is 
reasonable. But, I think Congress is necessary. The President, 
last week, and you, today, have said, obviously, you would 
welcome Congress, because we're stronger if we do it together, 
not just as an institution. We're stronger in the support we 
provide to the men and women that we ask to bear the risk of 
battle. If we ask them to bear the risk of battle in a war that 
may take a number of years, that will have aspects that we 
can't currently predict, some will be hurt, some will lose 
their lives, some will see bad things happen to their comrades 
in arms. If we're going to ask them to risk that, then we 
should do our job to bless the mission and say that it's worth 
it. If we're not willing to do our job as Congress, bless the 
mission and say that it's worth it, we shouldn't be asking 
people to risk everything.
    It is my hope that this body will grapple with this four-
point plan, will ask tough questions, will refine it, but will 
give our imprimatur to it so that we are not asking men and 
women to serve and potentially risk everything without us doing 
the job that we're supposed to do in order to demonstrate the 
national support for the mission that we're asking them to 
carry out.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Kaine.
    Senator King.
    Senator King. I'm in complete agreement with Senator Kaine, 
and I'm glad he went before me, because he articulated it much 
more clearly and forcefully than I would have.
    I would only touch a bit on the history. The Constitution 
is very clear, and it wasn't an afterthought or a minor comma 
here or there, ``Congress shall declare war.'' In fact, the 
interesting thing is, the first draft of the Constitution said, 
``Congress shall make war.'' They had an--they argued about an 
amendment to change ``make'' to ``declare,'' because they 
realized it was impractical for Congress to execute the war, so 
they changed it to ``declare'' to leave the power of execution 
to the President. But, they were very explicit about why they 
did that. If you look at the 69th Federalist, it talks about 
the differences between the President and the King or other 
executives--and this is one of the principal things they 
pointed to--and the risk of having the power of war exclusively 
vested in the executive.
    In Madison's notes to the Constitution on--I think it's 
August 17, 1787--Madison talks about this discussion of the 
declaration of war, and George Mason used a wonderful phrase. 
He said, ``It is our intention--it is our goal--our goal here 
is clogging rather than facilitating war.'' That's an 
interesting term. They wanted it to be a deliberate decision.
    I believe, along with Senator Kaine, that stretching the 
AUMF from 2001 or 2002 to cover this situation renders the 
constitutional clause a nullity. I just believe, and the danger 
here is, as this happens year-by-year, war-by-war, conflict-by-
conflict, eventually there's nothing left of that provision, 
and we have, in fact, transferred to the executive the 
unilateral power to commit American forces. That's not good for 
this country. We may like this President. There may be a 
President down the road we don't like and we don't want to have 
this power. The more precedent we establish--and it started 
with Harry Truman in Korea, where there was no declaration--I 
think the stronger that precedent becomes embedded, the more 
dangerous it is for the country.
    I think it's significant that the administration is now 
using the word ``war.'' I won't go further, but I think it's an 
important point. I totally agree that Congress has to act, and 
it's our responsibility to act. It's our responsibility to act. 
It will strengthen the President's hand, it will strengthen the 
coalition, it will strengthen our ability to draw coalition 
partners if we are a unified country and we're not--Congress 
isn't doing what it usually does, which is criticize and 
second-guess, and instead is a participant in the decision.
    Second point. We need to be thinking about three levels of 
strategy here, it seems to me. One is the plan the President 
articulated, which I believe was a coherent, thoughtful, and 
strong position. The President has articulated a plan. The 
question is, as General Dempsey has alluded to today, what's 
Plan B if the coalition doesn't stand up? What happens if 
Turkey and Saudi Arabia or all the other countries decide that 
they're just not going to participate, and then we're in a 
position of the West waging war on Islam?--which is exactly 
what ISIL wants. We cannot be in that position. We've already 
quoted Tom Friedman today. I'll do it again. He had a wonderful 
phrase, and I'd paraphrase it applying to Turkey. ``They're 
with us on Monday, Wednesday, and Friday. They're against us on 
Tuesday and Thursday. They take the weekends off.'' These other 
countries have to get engaged in this struggle. Turkey is one 
of the prime candidates, because that's the jihadi interstate, 
that's how the people are getting into Syria and getting to 
ISIL. The strategic question is, what if they don't stand up? 
Are we going to do it by ourselves? I think the answer has to 
be, we can't, not only because the American people aren't 
interested in it, but also because it isn't going to work. This 
war has to have a coalition face.
    The third strategic question, forgetting about this current 
battle, this is a battle in a long-term war. The real question, 
to me, is, what is our strategy for dealing with radical 
jihadism, generally, not just ISIL? We have al Qaeda, ISIL, al-
Shabaab, Boko Haram, AQAP, al-Nusra. This is geopolitical 
whack-a-mole, and we have to have a strategy to get to the 
bottom of why are young people joining these organizations? 
What's motivating them? How do we counter their message that is 
attracting people into this radical death-oriented philosophy?
    The administration has to deal with the current crisis, I 
understand that. I think ISIL is a threat. But, we also have to 
deal with, what happens if the Iraqi army doesn't stand up 
adequately? What happens if our troops that we train in Syria 
are unable to really take the fight to ISIL?
    The third question which I think is important is, we have 
to have a longer term, more broad strategy to deal with this 
threat. Otherwise, this is going to be a 100-year war. I just 
don't think it's in anyone's interest to contemplate such a 
terrible outcome.
    Again, I want to thank you, gentlemen, and your testimony 
has been very helpful today, both of you.
    Chairman Levin. Thank you, Senator King.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you both for your service and being here today.
    Secretary Hagel, much has been talked about the role of 
Turkey and concerns about foreign fighters using their 
territory to cross in to aid the fighting. When you were in 
Turkey last week, what can you tell us about our engagement 
with Turkey to help stream the tide of the foreign fighter 
flow? Also, Turkey really hasn't committed publicly to what it 
will do as part of the core coalition. What can you tell us 
about their intentions with regard to this effort?
    Secretary Hagel. Thank you, Senator. I know, as you have 
expressed it, other Senators, the importance of Turkey, here. 
We agree.
    First, you know that ISIL is currently holding 46 Turkish 
diplomats hostage. In my conversations with President Erdogan 
and the new Prime Minister, Davutoglu, all their senior 
leaders, this obviously was at the top of their priority list, 
which it would be. Secretary Kerry was there a few days after I 
was there.
    Now, that said, Turkey recognizes, as much as any country, 
the threat that ISIL poses as other extremist groups. They are 
working with us now, will continue to work with us. Obviously, 
in an open hearing, I can't go too far down into this. We'd be 
glad to give you more in a closed session.
    Senator Gillibrand. Also, the oil on the black market.
    Secretary Hagel. That's another issue that----
    Senator Gillibrand. It's a huge financing stream for them.
    Secretary Hagel.--it's another issue that we talk to them 
about. They're not unaware of that. They know that it's a 
threat. They know that it's a major funding source of ISIL. 
They are moving to deal with some of these same issues. Our 
interests are common and clear. I think it's important to 
recognize, again, that Turkey has been an invaluable member of 
NATO, still is. We have a NATO base there. We have a lot going 
on with Turkey, as do other NATO countries. Their interests are 
clear, and they understand that in this fight.
    Senator Gillibrand. Many of the members of this committee 
have talked about the effectiveness of arming the moderate 
rebels. Senator Hirono just had a line of questioning about 
what agreements do they have with them? The Sotloff family have 
made certain questions about what information the moderates may 
have given to ISIL about their son. I'm concerned about how we 
assess their abilities, their effectiveness. When I met some of 
these opposition fighters the last time I was overseas, they 
wouldn't even agree to locking down and securing chemical 
weapons, when they were found, and turning them over to an 
international body. How can you engage them? How can you truly 
vet them? How can we have any hope that, if they do agree to 
fight ISIL on some level, not just Assad, that they will 
continue to do so and not align themselves with ISIL when they 
feel like Assad is in their sights?
    Secretary Hagel. I think a couple of points need to be 
reemphasized to answer your question. General Dempsey has 
talked about it today. I have. In both our testimonies. First, 
it goes back to a couple of recent questions that were asked 
here in the last few minutes. The United States cannot do any 
of this alone. This is why the local efforts, local 
organization has to be involved in this.
    Second, confidence and trust in their governments. When you 
really look at--with some intensity here, what's going on in 
Syria, how did this happen, why was it allowed to happen in 
Iraq, how did the Sunni tribes just walk away from the 
government, three divisions of the Iraqi security forces 
dropping their weapons and running--why did all that happen? 
General Dempsey--I know it's complicated, but he made a very 
important point. When people are disenfranchised, they don't 
trust their government, they don't have confidence in their 
government, their will to fight and to do the things that 
you're talking about won't be there. To reestablish trust and 
confidence coming from the locals, helping sustain them, build 
them, development, is really, I think, the answer to the 
question as much as anyone thinks.
    Senator Gillibrand. But, the moderate fighters, 
specifically, their goals are to unseat Assad. That is their 
primary reason for fighting. If we add this additional mission 
to them, ``We are going to help you, but you must help defeat 
ISIL,'' I don't know what makes them trade off one mission for 
the other. I don't know what hook you have that says, ``You 
have to help us defeat ISIL, and we'll assist in this'' in a 
way that they don't, at some point, say, ``No, our goal is to 
defeat Assad, and the way to defeat Assad is give all the 
weapons you just gave us to these better fighters that are 
represented by ISIL.''
    Secretary Hagel. I don't think they see it as an either/or. 
ISIL is a clear threat to them. What ISIL has done to them, to 
their people, their families, decimated their villages, the 
atrocities that ISIL has perpetrated on these people in Syria--
it isn't a matter of, ``We'll fight either ISIL or Assad.''
    What I believe--and I think we have pretty clear 
intelligence on this, and the responsibility that we all have 
of understanding the people, first, is--it's pretty clear they 
want a future for their families, they want to live in some 
peace and stability, with possibilities and jobs for their 
families. One of the points that was made here earlier this 
morning--and I think General Dempsey made it--until there's 
some clarification on these millions of disenfranchised young 
men in North Africa, the Middle East, with no jobs, no 
possibilities, nothing, no hope, despair, then one country 
isn't going to be able to fix this problem. This is a deep, 
wide problem. I think it really does reflect back on your 
question.
    We can't do it alone. It is a long-term effort. But, the 
threats to us are so clear now, and to these people, that we 
have to deal with it.
    Senator Gillibrand. Thank you.
    Chairman Levin. Thank you.
    I just want to clarify one number I think you both have 
used, a 5,000 goal for the DOD train-and-equip program. If--and 
this is an ``if'' as published reports indicate, there's a 
covert program--I'm saying ``if''--any numbers involved in that 
covert program would not be involved in the 5,000. Is that 
correct?
    General Dempsey. That's correct.
    Chairman Levin. Thank you.
    We thank you very much for being here, for your testimony.
    We stand adjourned.
    [Whereupon, at 1:09 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Richard Blumenthal
                status of u-2 divestiture certification
    1. Senator Blumenthal. [Deleted.]
    Secretary Hagel. [Deleted.]

    2. Senator Blumenthal. Secretary Hagel, the U-2 currently provides 
75 percent of our actionable intelligence. Several combatant commanders 
are on record supporting the capabilities of the U-2 over the Global 
Hawk, based on the U-2's multispectral capability and superior electro-
optical infrared sensor. In the 2007 and 2012 National Defense 
Authorization Acts (NDAA), Congress precluded the retirement of the U-2 
until intelligence, surveillance, and reconnaissance (ISR) gaps caused 
by the retirement of the U-2 are fully mitigated. The law further 
stipulates that ``until the capability to be fielded at the same time 
or before the U-2 aircraft retirement would result in equal or greater 
capability available to the commanders of the combatant commands.'' It 
does not seem prudent to be retiring a capable platform for a less 
capable platform at a time when we are using our ISR assets at their 
highest operational tempo ever. What is your current plan to comply 
with the statutory requirement, upgrade the multispectral capabilities 
of the Global Hawk sensor, and fully fund a transition plan to move 
from reliance on the U-2 to only the Global Hawk without creating an 
ISR gap?
    Secretary Hagel. The plan to upgrade the capabilities of the Global 
Hawk sensor and transition ISR missions from the U-2 to the Global Hawk 
is detailed in the office of Cost Assessment and Program Evaluation's 
(CAPE) classified report to Congress. This report was prepared in 
response to section 143(c) of the NDAA for Fiscal Year 2014 and was 
briefed to members of the Senate Armed Services Committee on September 
3, 2014. The Department of Defense Special Access Program Central 
Office is coordinating with your office to arrange a discussion in 
which CAPE can review with you the classified details of the plan.

                         executive order 13223
    3. Senator Blumenthal. Secretary Hagel, on September 14, 2001, 
President Bush signed Executive Order 13223, authorizing under 10 
U.S.C. 12302 a partial mobilization of up to 1 million Reserve and 
National Guard personnel. He delegated this authority to the Secretary 
of Defense. Will you use this authority to mobilize members of the 
Reserve components for new regional challenges in Syria and Iraq?
    Secretary Hagel. Over the past 13 years, the Reserve component has 
proven to be a capable and vital part of the Total Force. If the 
Service Chiefs determine there is a need to use Reserve component 
assets to combat the current challenges in Syria and Iraq, or 
elsewhere, then I would consider exercising my authority under 10 
U.S.C. 12302, pursuant to Executive Order 13223.

    4. Senator Blumenthal. Secretary Hagel, what is the plan for the 
Department of Defense (DOD) to end the partial mobilization of the 
Reserve components?
    Secretary Hagel. DOD recommended to the President in August of this 
year that he continue the state of national emergency, initially 
declared on September 14, 2001, and the authority to continue partial 
mobilization of the Reserve component for another year. The President 
did so on September 4, 2014. We will reevaluate this issue again in 
2015 and determine if partial mobilization continues to be required.

    5. Senator Blumenthal. Secretary Hagel, can you use authority under 
10 U.S.C. 12304 to maintain an operational reserve for current missions 
and deployments?
    Secretary Hagel. We have been using the broader mobilization 
authority provided by 10 U.S.C. 12302 to support current terrorist 
response missions and deployments. We are evaluating whether 10 U.S.C. 
12304 would provide adequate authority to support these missions.
                                 ______
                                 
             Question Submitted by Senator Roger F. Wicker
                amphibious ships being used for missions
    6. Senator Wicker. General Dempsey, last week it was reported that 
Marine Corps Harriers operating off the USS Bataan carried out a strike 
against the Islamic State of Iraq and Levant (ISIL). This marked the 
first time that our marines have participated in operations against 
ISIL, although they had been conducting ISR missions since the end of 
July. Also, the deployment of this Amphibious Ready Group was extended 
by 21 days in order to meet the needs of the combatant commander. These 
operations, and the extension of the ships' deployment, reinforce the 
fact that amphibious ships give commanders the flexibility they need to 
carry out a variety of missions, and underscore my concern that we do 
not have enough of these ships. The incoming Commandant of the Marine 
Corps, General Dunford, expressed those concerns to this committee 
during his confirmation hearing. I would like to hear your thoughts on 
this too. Specifically, do you have enough amphibious ships to meet the 
growing requirements?
    General Dempsey. I agree that we do not have enough of these 
amphibious ships, which give commanders more flexibility to carry out a 
variety of missions. To meet all Combatant Command Marine daily 
``presence'' requirements with only amphibious ships DOD would require 
more than 50 ships. However, that solution would not be affordable or 
prudent. DOD's surge requirement is 38 amphibious ships, with 33 being 
the affordable number to execute the strategy with acceptable risk. At 
31, our current inventory is just short of that number. We do not have 
enough amphibious ships but given today's fiscal environment and budget 
uncertainty, the current plan provides the best balance of assets in 
this period of limited resources and diminishing flexibility.
                                 ______
                                 
                Questions Submitted by Senator Mike Lee
                             syrian rebels
    7. Senator Lee. Secretary Hagel, in an article from the newspaper, 
The Daily Star of Lebanon, on September 8, 2014, a Free Syrian Army 
commander, Bassel Idriss, is quoted stating: ``We are collaborating 
with the Islamic State and the Nursa Front by attacking the Syrian 
Army's gatherings in Qalamoun.'' The Hill newspaper reported on Friday 
that according to human rights groups monitoring the situation, a group 
of moderate rebels signed a cease-fire deal with ISIL. The Washington 
Post recently reported that Islamic State militants were using anti-
tank weapons once held by moderate Syrian rebels. These reports were 
all in the past 2 weeks. How do you reconcile reports like this with 
the President's plan to train and arm these fighters?
    Secretary Hagel. The moderate Syrian opposition is caught in a two-
front war against the Assad regime and terrorist groups such as ISIL 
and al-Nusrah Front. In some cases, moderate Syrian opposition units 
may have cooperated with extremists at the tactical level. Tactical 
cooperation does not indicate that moderate groups subscribe to the 
extremists' ideology. In other cases, we know that extremist 
organizations, like ISIL, have posted false reports about collaboration 
with the moderate opposition, including claims of cease fires. 
Likewise, we also know that extremist groups like ISIL have attacked 
moderate groups in order to steal their weapons and equipment. We will 
work closely with the Intelligence Community and foreign partners to 
screen recruits for any ties to extremist organizations.
    These anecdotes highlight--vice diminish--the need for a robust 
program to train-and-equip the moderate Syrian opposition to fight 
against groups like ISIL. With training they will be more effective in 
maintaining control of the weapons and equipment we give them.

    8. Senator Lee. Secretary Hagel, if the moderate rebels we train 
and arm in Syria do not perform as well as you hope and need additional 
force to combat either ISIL or Assad, will the United States escalate 
our involvement to assist them?
    Secretary Hagel. We intend to carefully weigh the level of U.S. 
support against a range of factors as we move forward with this 
program, including the circumstances on the ground, the ability to 
achieve U.S. objectives, and the related costs, risks, and 
opportunities. At this time, we neither want to limit ourselves nor 
over-commit to levels of support, given the variable operating 
environment.

                 combating the flow of foreign fighters
    9. Senator Lee. Secretary Hagel, in the President's speech last 
week, he discussed combating the flow of foreign fighters whose western 
passports allow for easier travel into the Western Hemisphere and the 
United States. I believe that the threat of these fighters returning 
from the battlefield to carry out attacks, such as the shootings on May 
24, 2014, at the Jewish Museum in Belgium, are an issue that we must be 
addressing now. How is DOD coordinating with other U.S. Government 
agencies and our allies to identify, track, and prevent these fighters 
from leaving the battlefield and threatening the U.S. Homeland?
    Secretary Hagel. DOD remains concerned about the foreign (i.e., 
non-Syrian) fighters traveling to and from Iraq and Syria. This concern 
is particularly acute with respect to those individuals from visa 
waiver countries, whose passports could allow them to enter the United 
States with limited scrutiny. DOD has a relatively small, but 
important, role in the U.S. Government's effort to address this 
important challenge. DOD is currently focused on gaining a better 
understanding of the scope and complexity of the problem set and 
communicating insights to U.S. Government departments and agencies and 
foreign governments best situated to interdict these foreign fighters, 
such as through investigation and arrest.

    10. Senator Lee. Secretary Hagel, is the administration working 
with the Government of Turkey to disrupt the networks through their 
country that ISIL and other extremist recruits use to be smuggled into 
and out of Syria?
    Secretary Hagel. The flow of foreign fighters (i.e., non-Syrian) to 
and from Syria remains a significant concern for DOD and many of our 
allies and partners including Turkey, a North Atlantic Treaty 
Organization ally. The Government of Turkey is a critical partner in 
the coalition of nations that seek to address the threats emanating 
from Iraq and Syria. Over the past months, DOD has conducted a number 
of high-level engagements with Turkish officials to pursue expanded 
cooperation in combating ISIL and stemming the flow of foreign 
fighters. These engagements include my most recent visit to Ankara on 
September 8, 2014. On foreign fighter issues, we have seen some 
progress already, and believe the Government of Turkey will soon 
further increase its own efforts, and will continue to collaborate with 
the international community to address this challenge. However, the 
effort to stem the flow of foreign fighters traveling to Iraq and Syria 
extends well beyond Turkey, to include source countries and other 
transit points in the region. DOD continues to collaborate with other 
U.S. Government departments and agencies, and to engage with 
international partners following the President's speech at the United 
Nations General Assembly to ensure that we are supporting the broader 
international effort to address this challenge globally.

    11. Senator Lee. General Dempsey, President Obama stated that we do 
not have intelligence of specific attacks against the United States 
being planned by ISIL, but that they have the desire and ambition to do 
so. Where does the al Qaeda threat against the United States measure up 
against the threats we are currently seeing from ISIL?
    General Dempsey. Al Qaeda's goal has had a greater focus on direct, 
larger scale attacks against the United States, while ISIL is more 
focused on smaller scale attacks that may not necessarily be directed 
against the Homeland but still target Americans and westerners 
throughout the world.
    Due to their fight in Syria and Iraq and public calls for avenging 
strikes, ISIL has broader influence and appeal than al-Qaeda, 
increasing the possibility for inspired, individual attacks against the 
Homeland and Western interests.

                  iraqi government and security forces
    12. Senator Lee. General Dempsey, I am especially concerned that 
the Iraqi Security Forces lost large quantities of U.S.-provided 
weapons to ISIL forces when they retreated from northern Iraq this 
summer. As you well know, we spent many years and billions of dollars 
training these forces. What is your current assessment of the Iraqi 
Security Forces and how are you working to prevent another collapse of 
their willingness to fight and secure the weapons we are giving them?
    General Dempsey. The collapse of portions of the Iraqi Security 
Forces can in part be attributed to poor leadership and mismanagement 
by a Shia dominated Government of Iraq. This is why military assistance 
from the U.S. Government and the coalition has been, and will continue 
to be, predicated upon the formation of an inclusive Iraqi government 
that includes representation from Sunni, Shia, and Kurds. An inclusive 
Government of Iraq will facilitate the proper management of the Iraqi 
Security Forces and prevent another collapse like the one that occurred 
this summer. Additionally, the Coalition to Counter-ISIL will institute 
a train, advise, and assist plan intended to improve the capabilities 
of the Iraqi Security Forces, increasing their willingness to go on the 
offensive and take back lost terrain from ISIL.

    13. Senator Lee. General Dempsey, the Kurdish Peshmerga are proving 
so far to be reliable and efficient at pushing back against ISIL in 
northern Iraq. Are the Peshmerga and Kurdish political leaders 
supportive of a unified and stable government in Baghdad, or do their 
intentions against ISIL extend only as far as protecting their people 
and Kurdish territory?
    General Dempsey. The Kurdistan Regional Government has expressed 
support for and willingness to participate in the new Government of 
Iraq headed by Prime Minister Abadi. Its leaders have declared they 
will work with Baghdad to bring Iraq's different communities together 
to confront the country's political, economic, and security challenges. 
Kurdish and Peshmerga political leaders support a unified and inclusive 
Government of Iraq that operates in accordance with the Iraqi 
constitution.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
